36368                     Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

quality and maintains congressional           DEPARTMENT OF HEALTH AND                    Guidance for the DMEPOS Industry
correspondence files.                         HUMAN SERVICES                                 On August 7, 1998, the OIG published
   Prepares briefing books for                                                            a solicitation notice (63 FR 42409)
congressional hearings, assists in the        Office of Inspector General                 seeking information and
preparation and finalization of                                                           recommendations for developing
                                              Publication of OIG Compliance
testimony, researches information in                                                      guidance for the durable medical
                                              Program Guidance for the Durable
response to congressional, department                                                     equipment, prosthetics, orthotics and
                                              Medical Equipment, Prosthetics,
and interagency requests (verbal or                                                       supply (DMEPOS) industry. In response
                                              Orthotics and Supply Industry
written), responds to incoming calls                                                      to that solicitation notice, the OIG
from Congress (subject to knowledge of                                                    received numerous comments from
                                              AGENCY: Office of Inspector General
program area), and provides office                                                        various parts of the industry and from
                                              (OIG), HHS.
automation support.                                                                       their representatives. We carefully
                                              ACTION:   Notice.                           considered those comments, as well as
   Office of Management and Systems                                                       consulted with DOJ, HCFA and the
(DAJ): Advises and assists the                SUMMARY:    This Federal Register notice    durable medical equipment regional
Commissioner and other key agency             sets forth the recently issued              carriers in developing a draft
officials on various management and           Compliance Program Guidance for the         compliance program guidance for the
systems activities.                           Durable Medical Equipment,                  DMEPOS industry. In an effort to ensure
   Ensures that the conduct of agency         Prosthetics, Orthotics and Supply           that all parties had a reasonable
administrative and financial                  Industry that has been developed by the     opportunity to provide input into a final
management activities, including              Office of Inspector General in              product, the draft guidance for the
budget, finance, personnel,                   cooperation with, and with input from,      DMEPOS industry was published in the
organization, methods, grants and             the Health Care Financing                   Federal Register on January 28, 1999
contracts, procurement and property,          Administration (HCFA), the Department       (64 FR 4436) for further comment and
records, and similar support activities,      of Justice (DOJ) and representatives of     recommendations.
effectively support program operations.       various trade associations and health       Elements for an Effective Compliance
                                              care practice groups. The OIG has           Program
   Coordinates the integration and
                                              previously developed and published
development of management                                                                   Through experience, the OIG has
                                              compliance program guidance focusing
information systems.                          on hospitals, clinical laboratories, home   identified 7 fundamental elements
   Advises the Commissioner on                health agencies, and third-party medical    applicable to an effective compliance
management information systems                billing companies. We believe that the      program. They are:
policies.                                                                                   • Implementing written policies,
                                              development and issuance of this
                                                                                          procedures and standards of conduct;
                                              compliance guidance will serve as a
   Executive Management Staff (DAJ–1):                                                      • Designating a compliance officer
Advises the Commissioner and other            positive step towards promoting a
                                                                                          and compliance committee;
key agency officials in regard to             higher level of ethical and lawful            • Conducting effective training and
administrative management matters for         conduct throughout the entire health        education;
their components.                             care industry.                                • Developing effective lines of
   Provides a focal point for                 FOR FURTHER INFORMATION CONTACT:            communication;
administrative activities for the Office of   Christine Pullifrone, Office of Counsel       • Enforcing standards through well­
the Commissioner.                             to the Inspector General, (202) 619–        publicized disciplinary guidelines;
                                              2078.                                         • Conducting internal monitoring and
   Develops, coordinates, and facilitates                                                 auditing; and
various administrative processes such as      SUPPLEMENTARY INFORMATION:                    • Responding promptly to detected
personnel, procurement, training, travel,                                                 offenses and developing corrective
                                              Background
and other pertinent areas as necessary.                                                   action.
   Establishes and maintains liaison             The creation of compliance program         Using these 7 elements, the OIG has
with administrative officers throughout       guidances has been an important             identified specific areas of DMEPOS
the serviced components to keep abreast       undertaking by the OIG in its effort to     industry operations that may prove to be
with current issues.                          engage the health care community in         vulnerable to fraud and abuse. Like
                                              combating fraud and abuse. In               previously-issued OIG compliance
   Prior Delegations of Authority.            formulating this compliance guidance,       guidance, adoption of the Compliance
Pending further delegations, directives,      the OIG has worked closely with HCFA,       Program Guidance for the Durable
or orders by the Commissioner of Food         and has received input from interested      Medical Equipment, Prosthetics,
and Drugs, all delegations or                 parties and industry trade associations.    Orthotics and Supply Industry set forth
redelegations of authority to positions of    The 4 previously-issued compliance          below will be strictly voluntary.
the affected organizations in effect prior    program guidances focused on the              A reprint of the newly-issued
to this date shall continue in effect in      hospital industry, home health agencies,    compliance program guidance follows:
them or their successors.                     clinical laboratories and third-party       Office of Inspector General’s
  Dated: June 28, 1999.                       medical billing companies. The              Compliance Program Guidance for the
William K. Hubbard,                           development of these types of               Durable Medical Equipment,
                                              compliance program guidances are            Prosthetics, Orthotics and Supply
Senior Associate Commissioner for Policy,
Planning and Legislation.
                                              based on our belief that a health care      Industry (June 1999)
                                              provider can efficiently use internal
[FR Doc. 99–17019 Filed 6–30–99; 12:55 pm]                                                I. Introduction
                                              controls to monitor adherence to
BILLING CODE 4160–01–F                        applicable statutes, regulations and          The Office of Inspector General (OIG)
                                              program requirements.                       of the Department of Health and Human
                                  Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                                          36369

Services (HHS) continues in its efforts to                pertinent for all DMEPOS suppliers,         A formal compliance program, as an
promote voluntarily developed and                         regardless of size (in terms of employees   additional element in this process,
implemented compliance programs for                       and gross revenue); number of locations;    offers a DMEPOS supplier a further
the health care industry. The following                   type of equipment provided; or              concrete method that may improve
compliance program guidance is                            corporate structure. The applicability of   quality of service and reduce waste.
intended to assist suppliers 1 of durable                 the recommendations and guidelines          Compliance programs also provide a
medical equipment,2 prosthetics,3                         provided in this document depends on        central coordinating mechanism for
orthotics,4 and supplies 5 (DMEPOS) and                   the circumstances of each individual        furnishing and disseminating
their agents and subcontractors (referred                 DMEPOS supplier. However, regardless        information and guidance on applicable
to collectively in this document as                       of a DMEPOS supplier’s size or              Federal and State statutes, regulations,
DMEPOS suppliers) develop effective                       structure, the OIG believes that every      and Federal, State and private health
internal controls that promote                            DMEPOS supplier can and should strive       care program requirements.
adherence to applicable Federal and                       to accomplish the objectives and              Implementing an effective compliance
State law, and the program requirements                   principles underlying all of the            program requires a substantial
of Federal, State and private health                      compliance policies and procedures          commitment of time, energy, and
plans.6 The adoption and                                  recommended within this guidance.           resources by senior management and the
implementation of voluntary                                  Fundamentally, compliance efforts        DMEPOS supplier’s governing body.7
compliance programs significantly                         are designed to establish a culture         Superficial programs that simply have
advance the prevention of fraud, abuse,                   within a DMEPOS supplier that               the appearance of compliance without
and waste in these health care plans                      promotes prevention, detection, and         being wholeheartedly adopted and
while at the same time further the                        resolution of instances of conduct that     implemented by the DMEPOS supplier
fundamental mission of all DMEPOS                         do not conform to Federal and State         or programs that are hastily constructed
suppliers, which is to provide quality                    law, and Federal, State and private         and implemented without appropriate
items, service, and care to patients.                     payor health care program requirements,     ongoing monitoring will likely be
   Within this document, the OIG first                    as well as the DMEPOS supplier’s            ineffective and could expose the
provides its general views on the value                   ethical and business policies. In           DMEPOS supplier to greater liability
and fundamental principles of DMEPOS                      practice, the compliance program            than no program at all. Although it may
suppliers’ compliance programs, and                       should effectively articulate and           require significant additional resources
then provides the specific elements that                  demonstrate the DMEPOS supplier’s           or reallocation of existing resources to
each DMEPOS supplier should consider                      commitment to ethical conduct.              implement an effective compliance
when developing and implementing an                       Benchmarks that demonstrate                 program, the long term benefits of
effective compliance program. While                       implementation and achievements are         implementing the program significantly
this document presents basic procedural                   essential to any effective compliance       outweigh the costs. Undertaking a
and structural guidance for designing a                   program. Eventually, a compliance           voluntary compliance program is a
compliance program, it is not in itself a                 program should become part of the           beneficial investment that advances
compliance program. Rather, it is a set                   fabric of routine DMEPOS supplier           both the DMEPOS supplier’s
of guidelines to be considered by a                       operations.                                 organization and the stability and
                                                             Specifically, compliance programs        solvency of the Medicare program.
DMEPOS supplier interested in
                                                          guide a DMEPOS supplier’s owner(s),
implementing a compliance program.                                                                    A. Benefits of a Compliance Program
                                                          governing body (e.g., board of directors
   The OIG recognizes the size­
                                                          or trustees), chief executive officer          The OIG believes an effective
differential that exists between
                                                          (CEO), president, vice president(s),        compliance program provides a
operations of the different DMEPOS                        managers, sales representatives, billing    mechanism that brings the public and
suppliers and organizations that                          personnel, and other employees in the       private sectors together to reach mutual
compose the DMEPOS industry.                              efficient management and operation of a     goals of reducing fraud and abuse,
Appropriately, this guidance is                           DMEPOS supplier. They are especially        improving operational quality,
  1 The term ‘‘supplier’’ is defined in this document
                                                          critical as an internal quality assurance   improving the quality of health care
as an entity or individual, including a physician or      control in the reimbursement and            services and reducing the cost of health
Part A provider, that sells or rents Part B covered       payment areas, where claims and billing     care. Attaining these goals provides
DMEPOS items and meets the Medicare supplier              operations are often the source of fraud    positive results to the DMEPOS
standards. See 42 CFR 424.57(a).                          and abuse, and therefore, historically
  2 The term ‘‘durable medical equipment’’ is
                                                                                                      supplier, the Government and
applied in this document as defined in 42 U.S.C.
                                                          have been the focus of Government           individual citizens alike. In addition to
1395x(n).                                                 regulation, scrutiny, prosecution and       fulfilling its legal duty to ensure that it
  3 The term ‘‘prosthetics’’ and ‘‘prosthetic devices’’   sanctions.                                  is not submitting false or inaccurate
are applied in this document as defined in 42                It is incumbent upon a DMEPOS            claims to Government and private
U.S.C. 1395x(s)(9) and (s)(8), respectively.              supplier’s owner(s), corporate officers,
  4 The term ‘‘orthotics’’ is applied in this
                                                                                                      payors, a DMEPOS supplier may gain
                                                          and managers to provide ethical             numerous additional benefits by
document as defined in 42 U.S.C. 1395x(s)(9).
  5 The term ‘‘supplies’’ includes home dialysis
                                                          leadership to the organization and to       voluntarily implementing an effective
supplies and equipment as described in 42 U.S.C.          assure that adequate systems are in         compliance program. These benefits
1395x(s)(2)(f); surgical dressings and other devices      place to facilitate ethical and legal       may include:
as described in 42 U.S.C. 1395x(s)(5);                    conduct. Employees, managers, and the          • The formulation of effective
immunosuppressive drugs as described in 42 U.S.C.         Government will focus on the words
1395x(s)(2)(J); and any other items or services                                                       internal controls to assure compliance
designated by the Health Care Financing                   and actions of a DMEPOS supplier’s
Administration (HCFA).                                    leadership as a measure of the                7 Recent case law suggests that the failure of a
  6 The OIG recognizes that not every supplier            organization’s commitment to                corporate Director to attempt in good faith to
provides durable medical equipment, prosthetics,          compliance. Indeed, many DMEPOS             institute a compliance program in certain situations
orthotics and supplies. However, a compliance                                                         may be a breach of a Director’s fiduciary obligation.
program incorporating the elements in this
                                                          suppliers have adopted mission              See, e.g., In re Caremark International Inc.
guidance can be used by all suppliers regardless of       statements articulating their               Derivative Litigation, 698 A.2d 959 (Ct. Chanc. Del.
the items/services they provide.                          commitment to high ethical standards.       1996).
36370                           Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

with Federal and State statutes, rules,               different departments within the                        suppliers to develop and implement
and regulations, and Federal, State and               DMEPOS supplier; the DMEPOS                             compliance elements that uniquely
private payor health care program                     supplier’s different locations; and the                 address the individual DMEPOS
requirements, and internal guidelines;                DMEPOS supplier’s separate business                     supplier’s risk areas.
   • A concrete demonstration to                      units (e.g., franchises, subsidiaries).                    The OIG believes that input and
employees and the community at large                     Overall, the OIG believes that an                    support by individuals and
of the DMEPOS supplier’s strong                       effective compliance program is a sound                 organizations that will utilize the tools
commitment to honest and responsible                  investment on the part of a DMEPOS                      set forth in this document is critical to
corporate conduct;                                    supplier.                                               the development and success of this
   • The ability to obtain an accurate                   The OIG recognizes that the                          compliance program guidance. In a
assessment of employee and contractor                 implementation of a compliance                          continuing effort to collaborate closely
behavior relating to fraud and abuse;                 program may not entirely eliminate                      with the private sector, the OIG placed
   • An increased likelihood of                       fraud, abuse, and waste from the                        a notice in the Federal Register
identification and prevention of                      DMEPOS supplier’s system. However, a                    soliciting recommendations and
criminal and unethical conduct;                       sincere effort by the DMEPOS supplier                   suggestions on what should be included
   • The ability to more quickly and                  to comply with applicable Federal and                   in this Compliance Program Guidance.10
accurately react to employees’                        State statutes, rules, and regulations and              Further, the OIG published the draft
operational compliance concerns and                   Federal, State and private payor health                 Compliance Program Guidance for the
the capability to effectively target                  care program requirements, through the                  DME, Prosthetics, Orthotics, and Supply
resources to address those concerns;                  establishment of an effective                           Industry in the Federal Register for
   • Improvement of the quality,                      compliance program, significantly                       public comment.11 In addition, we
efficiency, and consistency of providing              reduces the risk of unlawful or improper                considered previous OIG publications,
services;                                             conduct.                                                such as Special Fraud Alerts, Advisory
   • Increased efficiency on the part of              B. Application of Compliance Program                    Opinions,12 the findings and
employees;                                            Guidance                                                recommendations in reports issued by
   • A centralized source for distributing                                                                    OIG’s Office of Audit Services and
information on health care statutes,                     Given the diversity within the
                                                      industry, there is no single ‘‘best’’                   Office of Evaluation and Inspections, as
regulations, policies, and other program                                                                      well as the experience of past and recent
directives regarding fraud and abuse                  DMEPOS supplier compliance
                                                      program.9 The OIG understands the                       fraud investigations related to DMEPOS
and related issues;                                                                                           suppliers conducted by OIG’s Office of
   • Improved internal communication;                 variances and complexities within the
                                                                                                              Investigations and the Department of
   • A methodology that encourages                    DMEPOS supplier industry and is
                                                                                                              Justice.
employees to report potential problems;               sensitive to the differences among large
                                                                                                                 As appropriate, this guidance may be
   • Procedures that allow the prompt,                national and regional DMEPOS supplier
                                                      organizations, and small independent                    modified and expanded as more
thorough investigation of alleged
                                                      DMEPOS suppliers. However, elements                     information and knowledge is obtained
misconduct by corporate officers,
                                                      of this guidance can be used by all                     by the OIG, and as changes in the
managers, sales representatives,
                                                      DMEPOS suppliers, regardless of size                    statutes, rules, regulations, policies, and
employees, independent contractors,
                                                      (in terms of employees and gross                        procedures of Federal, State, and private
consultants, clinicians and other health
                                                      revenue); number of locations; type of                  health plans occur. The OIG
care professionals;
                                                      equipment provided; or corporate                        understands DMEPOS suppliers will
   • Initiation of immediate,
                                                      structure, to establish an effective                    need adequate time to react to these
appropriate, and decisive corrective
                                                      compliance program. Similarly, a                        modifications and expansions and to
action;
   • Early detection and reporting,                   DMEPOS supplier or corporation that                     make any necessary changes to their
minimizing the loss to the Government                 owns a DMEPOS supplier or provides                      voluntary compliance programs. New
from false claims, and thereby reducing               DMEPOS supplies may incorporate                         compliance practices may eventually be
the DMEPOS supplier’s exposure to                     these elements into its system-wide                     incorporated into this guidance if the
civil damages and penalties, criminal                 compliance or managerial structure. We                  OIG discovers significant enhancements
sanctions, and administrative remedies,               recognize that some DMEPOS suppliers                    to better ensure an effective compliance
such as program exclusion; 8 and                      may not be able to adopt certain                        program.
   • Enhancement of the structure of the              elements to the same comprehensive                         The OIG recognizes that the
DMEPOS supplier’s operations and the                  degree that others with more extensive                  development and implementation of
consistency between: any related                      resources may achieve. This guidance                    compliance programs in DMEPOS
entities of the DMEPOS supplier;                      represents the OIG’s suggestions on how                 suppliers often raise sensitive and
                                                      a DMEPOS supplier, regardless of size,
   8 The OIG, for example, will consider the          can best establish internal controls and                   10 See 63 FR 42409 (August 7, 1998), Notice for

existence of an effective compliance program that     monitor its conduct to correct and                      Solicitation of Information and Recommendations
pre-dated any governmental investigation when                                                                 for Developing OIG Compliance Program Guidance
                                                      prevent fraudulent activities. By no                    for the Durable Medical Equipment Industry.
addressing the appropriateness of administrative
sanctions. However, the burden is on the DMEPOS       means should the contents of this                          11 See 64 FR 4435 (January 28, 1999): Draft

supplier to demonstrate the operational               guidance be viewed as an exclusive                      Compliance Program Guidance for the DME,
effectiveness of a compliance program. Further, the   discussion of the advisable elements of                 Prosthetics, Orthotics, and Supply Industry.
False Claims Act, 31 U.S.C. 3729–3733, provides       a compliance program. On the contrary,                     12 The OIG periodically issues Advisory Opinions

that a person who has violated the Act, but who                                                               responding to specific inquiries from members of
voluntarily discloses the violation to the            the OIG strongly encourages DMEPOS                      the public and Special Fraud Alerts setting forth
Government within 30 days of detection, in certain                                                            activities that raise legal and enforcement issues.
circumstances will be subject to not less than           9 This is particularly true in the context of        Special Fraud Alerts and Advisory Opinions, as
double, as opposed to treble, damages. See 31         DMEPOS suppliers, which include many small              well as the regulations governing the issuance of
U.S.C. 3729(a). Thus, the ability to react quickly    independent DMEPOS suppliers with limited               Advisory Opinions, can be obtained on the Internet
when violations of the law are discovered may         financial resources, staff, and product lines as well   at http://www.dhhs.gov/progorg/oig, in the Federal
materially help reduce a DMEPOS supplier’s            as large DMEPOS supplier chains with extensive          Register, or by contacting the OIG’s Public
liability.                                            financial resources, staff, and product lines.          Information Desk at 202–619–1142.
                                Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                                                     36371

complex legal and managerial issues.13                 the DMEPOS supplier, especially the                      including a process, such as a hotline or
However, the OIG wishes to offer what                  owner(s), governing body, president,                     other reporting system, to receive
it believes is critical guidance for                   vice president(s), CEO, and managing                     complaints, and the adoption of
providers who are sincerely attempting                 employees, will substantially contribute                 procedures to protect the anonymity of
to comply with the relevant health care                to the program’s successful                              complainants and to protect callers from
statutes and regulations.                              implementation. As the compliance                        retaliation;
   At the end of each section, where                   program is implemented, that                               (5) The use of audits and/or other risk
applicable, the OIG has included ideas                 commitment should cascade down                           evaluation techniques to monitor
to help aid the small DMEPOS supplier                  through the management to every                          compliance, identify problem areas, and
in implementing the principles                         employee of the DMEPOS supplier.                         assist in the reduction of identified
espoused in this guidance. There is no                    At a minimum, comprehensive                           problem areas; 21
all inclusive definition of a small                    compliance programs should include                         (6) The development of appropriate
DMEPOS supplier. However, as                           the following seven elements:                            disciplinary mechanisms to enforce
previously mentioned, each DMEPOS                         (1) The development and distribution                  standards and the development of
supplier should tailor its compliance                  of written standards of conduct, as well                 policies addressing (i) employees who
program according to its resources.                    as written policies and procedures that                  have violated internal compliance
                                                       promote the DMEPOS supplier’s                            policies, applicable statutes, regulations,
II. Compliance Program Elements
                                                       commitment to compliance (e.g., by                       or Federal, State or private payor health
   The elements proposed by these                      including adherence to the compliance                    care program requirements and (ii) the
guidelines are similar to those of the                 program as an element in evaluating                      employment of sanctioned and other
other OIG Compliance Program                           managers and employees) and address                      specified individuals; 22 and
Guidances 14 and the OIG’s corporate                   specific areas of potential fraud, such as                 (7) The development of policies to
integrity agreements.15 The OIG believes               the claims development and submission                    respond to detected offenses and to
that every DMEPOS supplier can benefit                 process, completing certificates of                      initiate corrective action to prevent
from the principles espoused in this                   medical necessity (CMNs), and financial                  similar offenses.
guidance, which can be tailored to fit                 relationships with physicians and/or
the needs and financial realities of a                                                                          A. Written Policies and Procedures
                                                       other persons authorized 18 to order
particular DMEPOS supplier.                            DMEPOS;                                                    Every compliance program should
   The OIG believes that every effective                                                                        require the development and
                                                          (2) The designation of a compliance
compliance program must begin with a                                                                            distribution of written compliance
                                                       officer and other appropriate bodies,
formal commitment 16 by the DMEPOS                                                                              policies, standards, and practices that
                                                       (e.g., a corporate compliance
supplier’s governing body to include all                                                                        identify specific areas of risk and
                                                       committee), charged with the
of the applicable elements listed below,                                                                        vulnerability to the individual DMEPOS
                                                       responsibility for operating and
which are based on the seven steps of                                                                           supplier. These policies, standards, and
                                                       monitoring the compliance program,
the Federal Sentencing Guidelines.17                                                                            practices should be developed under the
                                                       and who report directly to the CEO and
The OIG recognizes full implementation                                                                          direction and supervision of the
                                                       the governing body; 19
of all elements may not be immediately                    (3) The development and                               compliance officer and the compliance
feasible for all DMEPOS suppliers.                     implementation of regular, effective                     committee (if such a committee is
However, as a first step, a good faith and             education and training for all affected                  practicable for the DMEPOS supplier)
meaningful commitment on the part of                   employees; 20                                            and, at a minimum, should be provided
                                                          (4) The development of effective lines                to all individuals who are affected by
  13 Nothing stated within this document should be
                                                       of communication between the                             the particular policy at issue, including
substituted for, or used in lieu of, competent legal                                                            the DMEPOS supplier’s agents and
advice from counsel.                                   compliance officer and all employees,
  14 See 63 FR 70138 (December 18, 1998) for the                                                                independent contractors who may affect
Compliance Program Guidance for Third Party               18 In some instances, persons other than the          billing decisions.23
Medical Billing Companies; 63 FR 42410 (August 7,      treating physician (e.g., nurse practitioner,
1998) for the Compliance Program Guidance for          physician assistant, clinical nurse specialist) may         21 For example, spot-checking the work of coding
Home Health Agencies; 63 FR 45076 (August 24,          be authorized to order DMEPOS for Medicare               and billing personnel periodically and conducting
1998) for the Compliance Program Guidance for          beneficiaries if permitted under State law and in        periodic post-payment claim review should be
Clinical Laboratories, as revised; 63 FR 8987          accordance with HCFA policies. A DMEPOS                  elements of an effective compliance program. See
(February 23, 1998) for the Compliance Program         supplier should be aware of any persons, other than      section II.E and accompanying notes.
Guidance for Hospitals. These documents are also       the treating physician, who are authorized to order         22 The term ‘‘Federal health care program’’ is
located on the Internet at http://www.dhhs.gov/        DMEPOS.                                                  applied in this document as defined in 42 U.S.C.
progorg/oig.                                              19 The integral functions of the compliance officer   1320a–7b(f), and includes any plan or program that
  15 Corporate integrity agreements are executed as
                                                       and the corporate compliance committee in                provides health benefits, whether directly, through
part of a civil settlement between a health care       implementing an effective compliance program are         insurance, or otherwise, which is funded directly in
provider and the Government to resolve a case          discussed throughout this compliance program             whole or in part, by the United States Government
based on allegations of health care fraud or abuse.    guidance. However, the OIG recognizes that the           (i.e., via programs such as Medicare, Federal
These OIG-imposed programs are in effect for a         differences in the sizes and structures of DMEPOS        Employees’ Compensation Act, Black Lung, or the
period of three to five years and require many of      suppliers will result in differences in the ways in      Longshore and Harbor Worker’s Compensation Act)
the elements included in this compliance program       which compliance programs are set up. It is              or any State health plan (e.g., Medicaid, or a
guidance.                                              important that a DMEPOS supplier structures its          program receiving funds from block grants for social
  16 A formal commitment may include a resolution      compliance program in such a way that the program        services or child health services). Also, for the
by the board of directors, owner(s) or president,      facilitates implementation of the key functions of       purpose of this document, the term ‘‘Federal health
where applicable. A formal commitment should           the corporate compliance officer and the corporate       care program requirements’’ refers to the statutes,
include the allocation of adequate resources to        compliance committee discussed within this               regulations, rules requirements, directives, and
ensure that each of the elements is addressed.         document. See section II.B and accompanying              instructions governing Medicare, Medicare,
  17 See United States Sentencing Commission           notes.                                                   Medicaid, and all other Federal health care
Guidelines, Guidelines Manual, 8A1.2, Application         20 Education and training programs for DMEPOS         programs.
Note 3(k). The Federal Sentencing Guidelines are       suppliers should be detailed and comprehensive.             23 According to the Federal Sentencing

detailed policies and practices for the Federal        They should cover specific billing procedures, sales     Guidelines, an organization must have established
criminal justice system that prescribe the             and marketing practices, as well as the general areas    compliance standards and procedures to be
appropriate sanctions for offenders convicted of       of compliance. See section II.C and accompanying         followed by its employees and other agents in order
Federal crimes.                                        notes.                                                                                              Continued
36372                           Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

   In addition to these general policies,                 The standards should be distributed                   collection of fundamental standards, the
it may be necessary to implement                       to, and comprehensible by, all affected                  written policies should articulate
individual policies for the different                  employees (e.g., translated into other                   specific procedures personnel should
components of the DMEPOS supplier.                     languages when necessary and written                     follow.
                                                       at appropriate reading levels). Further,
1. Standards of Conduct                                                                                            Consequently, we recommend that the
                                                       to assist in ensuring that employees
                                                       continuously meet the expected high                      individual policies and procedures be
  The OIG recommends that the                                                                                   coordinated with the appropriate
                                                       standards set forth in the standards of
DMEPOS supplier develop standards of                                                                            training and educational programs with
                                                       conduct, any employee handbook
conduct for all affected employees that                                                                         an emphasis on areas of special concern
                                                       delineating or expanding upon these
include a clearly delineated                                                                                    that have been identified by the OIG.28
                                                       standards should be regularly updated
commitment to compliance by the                                                                                 Some of the special areas of OIG
                                                       as applicable statutes, regulations, and
DMEPOS supplier’s senior                                                                                        concern include: 29
                                                       Federal, State, and private payor health
management, 24 including any related                   care program requirements are modified
entities or affiliated providers operating                                                                        • Billing for items or services not
                                                       and/or clarified.26                                      provided; 30
under the DMEPOS supplier’s control, 25                   When employees first begin working
and other health care professionals (e.g.,             for the DMEPOS supplier, and each time                     • Billing for services that the
nurses, licensed pharmacists,                          new standards of conduct are issued,                     DMEPOS supplier believes may be
physicians, and respiratory therapists).               the OIG suggests employees be asked to                   denied; 31
The standards of conduct should                        sign a statement certifying that they
function in the same fashion as a                      have received, read, understood, and
constitution, i.e., as a foundational                  will abide by the standards of conduct.                     28 A DMEPOS supplier’s compliance program

document that details the fundamental                  The employee’s certification should be                   should require that the legal staff, compliance
principles, values, and framework for                  retained by the DMEPOS supplier in the                   officer, or other appropriate personnel carefully
action within the DMEPOS supplier.                                                                              consider any and all Special Fraud Alerts and
                                                       employee’s personnel file, and available                 Advisory Opinions issued by the OIG that relate to
The standards should articulate the                    for review by the compliance officer.                    DMEPOS suppliers. See note 12. Moreover, the
DMEPOS supplier’s commitment to                           The OIG believes all DMEPOS                           compliance program should address the
comply with all Federal and State                      suppliers, regardless of size, should                    ramifications of failing to cease and correct any
statutes, rules, regulations and Federal,              operate professionally and ethically.                    conduct criticized in such a Special Fraud Alert or
                                                                                                                Advisory Opinion, if applicable to the DMEPOS
State and private payor health care                    The OIG recognizes that small DMEPOS                     supplier, or to take reasonable action to prevent
program requirements, with an                          suppliers may not have formal written                    such conduct from reoccurring in the future. If
emphasis on preventing fraud and                       standards of conduct. However, such                      appropriate, a DMEPOS supplier should take the
abuse. They should explicitly state the                unwritten standards of conduct (e.g., the                steps described in section II.G regarding
organization’s mission, goals, and                     manner in which the DMEPOS supplier                      investigations, reporting, and correction of
                                                                                                                identified problems.
ethical principles relative to compliance              conducts its business) should be relayed                    29 The OIG Work Plan details the various projects
and clearly define the DMEPOS                          to each employee. Employees should                       the OIG currently intends to address in the fiscal
supplier’s commitment to compliance                    attest, in writing, that they understand                 year. It should be noted that the priorities in the
and its expectations for all DMEPOS                    and will abide by these standards.                       Work Plan are subject to modification and revision
supplier owners, governing body                                                                                 as the year progresses and does not represent a
                                                       2. Written Policies for Risk Areas                       complete or final list of areas of concern to the OIG.
members, presidents, vice presidents,
                                                         As part of its commitment to                           The Work Plan is currently available on the Internet
corporate officers, managers, sales                                                                             at http://www.dhhs.gov/progorg/oig.
representatives, employees, and, where                 compliance, the DMEPOS supplier                             30 Billing for items or services not provided
appropriate, independent contractors                   should establish a comprehensive set of                  involves submitting a claim representing that the
and other agents. These standards                      written policies and procedures that                     DMEPOS supplier provided an item or service or
should promote integrity, support                      take into consideration the particular                   part of an item or service that the patient did not
                                                       statutes, rules, regulations, and program                receive. It may also include not fulfilling a
objectivity, and foster trust. Standards
                                                       instructions applicable to each function                 contractual agreement, for example, when the
should not only address compliance                                                                              DMEPOS supplier has agreed to service the rental
with statutes and regulations, but                     of the DMEPOS supplier.27 In contrast to                 equipment and does not fulfill this obligation.
should also set forth broad principles                 the standards of conduct, which are                         31 Billing for services that may be denied involves

that guide employees in conducting                     designed to be a clear and concise                       seeking reimbursement for a service that is not
business professionally and properly.                                                                           covered by Medicare or does not meet the Medicare
                                                          26 The OIG recognizes that not all statutes, rules,   coverage criteria as documented by the patient’s
                                                       regulations, standards, policies, and procedures         current medical condition. See 42 U.S.C.
to receive sentencing credit for an ‘‘effective’’      need to be communicated to all employees.                1395y(a)(1)(A). The OIG recognizes that DMEPOS
compliance program. The Federal Sentencing             However, the OIG believes that the bulk of the           suppliers cannot make medical necessity
Guidelines define ‘‘agent’’ as ‘‘any individual,       standards that relate to complying with fraud and        determinations and may not be aware if an item or
including a director, an officer, an employee, or an   abuse laws and other ethical areas should be             service will be denied in every instance. However,
independent contractor, authorized to act on behalf    addressed and made part of all affected employees’       civil money penalties (CMPs) and administrative
of the organization.’’ See United States Sentencing    training. A DMEPOS supplier must decide whether          sanctions may be imposed against any person who
Commission Guidelines, Guidelines Manual, 8A1.2,       additional educational programs should be targeted       submits a claim for services ‘‘that [the] person
Application Note 3(d).                                 to specific categories of employees based on job         knows or should know are not medically
  24 The OIG strongly encourages high-level
                                                       functions and areas of responsibility.                   necessary.’’ See 42 U.S.C. 1320a-7a(a). Such
involvement by a DMEPOS supplier’s owner(s),              27 A DMEPOS supplier can conduct focus groups,        conduct may also result in liability under civil and
governing body, CEO, president, vice president(s),     composed of managers from various departments, to        criminal laws. HCFA does allow DMEPOS suppliers
as well as other personnel, as appropriate, in the     solicit their concerns and ideas about compliance        to submit claims when the DMEPOS supplier
development of the standards of conduct. Such          risks that may be incorporated into the DMEPOS           believes the item or service may not be covered,
involvement should help communicate a strong and       supplier’s policies and procedures. Such employee        provided, however, that the supplier ‘‘note[s] on the
explicit organizational commitment to compliance       participation in the development of the DMEPOS           claim [its] belief that the service is noncovered and
goals and standards.                                   supplier’s compliance program can enhance its            that it is being submitted at the beneficiary’s
  25 E.g., pharmacies, billing services, and           credibility and foster employee acceptance of the        insistence.’’ See Medicare Carriers Manual, section
manufacturers.                                         program.                                                 3043. If the DMEPOS supplier believes the item or
                                 Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                                                         36373

  • Billing patients for denied chargs                       • Continuing to bill for rental items                    • Providing and/or billing for an item
without a signed written notice; 32                       after they are no longer medically                       or service that does not meet the quality
  • Duplicate billing; 33                                 necessary; 39                                            and standard of the DMEPOS item
  • Billing for items or services not                        • Resubmission of denied claims with                  claimed; 45
ordered; 34                                               different information in an attempt to be                   • Capped rentals; 46
  • Using a billing agent whose                           improperly reimbursed; 40                                   • Failure to monitor medical
compensation arrangement violates the                        • Refusing to submit a claim to                       necessity on an on-going basis; 47
reassignment rule; 35                                     Medicare for which payment is made on                       • Delivering or billing for certain
                                                          a reasonable charge or fee schedule                      items or supplies prior to receiving a
  • Upcoding; 36                                                                                                   physician’s order and/or appropriate
                                                          basis; 41
  • Unbundling items or supplies; 37
                                                             • Inadequate management and                           CMN; 48
  • Billing for new equipment and                         oversight of contracted services, which                     • Falsifying information on the claim
providing used equipment; 38                              results in improper billing; 42                          form, CMN, and/or accompanying
                                                             • Charge limitations; 43                              documentation; 49
service may be denied for any reason (e.g., not              • Providing and/or billing for
covered, not medically necessary), the DMEPOS                                                                      or billing for substantially excessive amounts of
supplier may have the beneficiary sign a written          substantially excessive amounts of
                                                                                                                   DMEPOS items or supplies, the DMEPOS supplier
notice accepting financial responsibility if the item     DMEPOS items or supplies; 44                             is financially responsible for remitting any
or service is denied (see Medicare Carriers Manual,                                                                overpayments relating to those items or supplies.
section 7300.5). The DMEPOS supplier should                  39 Once a rental item is no longer medically          The OIG recommends that if a DMEPOS supplier
include modifier ‘‘GA’’ on the claim for such item        necessary, the DMEPOS supplier required to               is providing and billing for a large number of items
or service. This modifier indicates the beneficiary       discontinue billing the payor for it. The OIG            or supplies for the same patient, it may periodically
has signed a written notice. If the beneficiary signed    recognizes that DMEPOS suppliers cannot make             want to contact the treating physician or other
an advance written notice, the DMEPOS supplier            medical necessity determinations and may not be          authorized person to confirm the medical necessity
may directly bill the beneficiary for the denied item     aware that a rental item is no longer medically          of the items or supplies. Such contact with the
or service. (See section II.A.3.i for further             necessary for a particular patient. As a result, the     physician’s office should be documented. The
discussion on written notices). See also discussion       OIG recommends that the DMEPOS supplier                  practice of billing for substantially excessive
in section II.A.3.a and accompanying notes.               periodically contact the treating physician or other     amounts of items or supplies may lead to exclusion
   32 This includes, but is not limited to, billing the
                                                          authorized person to ensure the rental item              from Federal health care programs and other
patient for items or services denied as not medically     continues to be medically necessary. In addition,        sanctions. See 42 U.S.C. 1320a–7(b)(6)(B).
necessary by the payor, where there has been no           the OIG recommends that the DMEPOS supplier                 45 This practice involves providing and./or billing
written notice signed by the patient, the written         pick up such equipment from the patient in a             for an item or service that does not meet the
notice has been inappropriately obtained or the           timely manner. If the DMEPOS supplier bills for a        definition and/or requirement of the item or service
written notice was drafted inappropriately. See           rental item after it is no longer medically necessary,   ordered by the treating physician or other
Medicare Carrier Manual, section 7300.5A,                 the DMEPOS supplier is financially responsible for       authorized person. Generally, such items are
regarding the requirements for written notice.            that item and must remit any overpayments for that       inferior in quality, and therefore do not meet the
   33 Duplicate billing occurs when more than one         item. See 42 U.S.C. 1320a-7b(a)(3), which provides       definition of what was ordered and/or billed.
claim for payment is submitted for the same patient,      criminal penalties for failure to disclose an            Sometimes this may mean that certin equipment
for the same service, for the same date of service        overpayment.                                             was never cleared by the Food and Drug
(by the same or different DMEPOS supplier), or the           40 This practice involves the DMEPOS supplier         Administration, as required by law. This practice
same claim is submitted to more than one payor as         improperly changing information on a previously          may lead to billing for items that are not reasonable
primary Although duplicate billing can occur due          denied claim and continuing to resubmit the claim        and necessary. A DMEPOS supplier should ensure
to simple error (which does not create civil or           in an attempt to receive payment. For example, a         that the iterm or services it furnishes meet
criminal liability), fraudulent duplicate billing is      DMEPOS supplier may submit a claim using the             professionally recognized minimum standards of
often evidenced by systematic or repeated double          accurate HCPCS code for the item or service              health care.
billing, and creates liability under criminal, civil,     provided and the claim is subsequently denied. It           46 See discussion in section II.A.3.k and
and administrative law, particularly if any               is improper to change the HCPCS code to HCPCS            accompanying notes.
overpayment is not promptly refunded. See note 72.        code that the DMEPOS supplier believes is                   47 In order for a patient to continue to receive
   34 Billing for items or services not ordered           reimbursable, when such item or service was not          items or supplies (e.g., rental equipment, supplies
involves seeking reimbursement for items or               provided.                                                for an on-going condition) and for the DMEPOS
services provided, but not ordered by the treating           41 This practice involves a DMEPOS supplier not
                                                                                                                   supplier to receive Medicare reimbursement, the
physician or other authorized person.                     submitting a claim on behalf of the beneficiary for      patient must meet the medical necessity criteria for
   35 If a billing agent receives payment on behalf of    items or services that are Medicare benefits and are     that specific item or supply on an on-going basis.
a DMEPOS supplier, the billing agent’s                    reimbursable under the Medicare program. See 42          The item or supply furnished by the DMEPOS
compensation may not be related in any way to the         U.S.C 1395w–4(g)(4).                                     supplier should be replaced or adjusted, in a timely
dollar amounts billed or collected. See 42 U.S.C.            42 The OIG recommends that the DMEPOS                 manner, to reflect changes in the patient’s
1395u(b)(6); 42 CFR 424.73; Medicare Carriers             supplier create internal mechanisms to ensure that       condition. The OIG recognizes that a DMEPOS
Manual, section 3060.                                     the use of contractors does not lead to improper         supplier cannot make medical necessity
   36 Upcoding involves selecting a code to               billing practices.                                       determinations and may not be aware when a
maximize reimbursement when such code is not the             43 A DMEPOS supplier should ensure that its           patient’s condition changes. However, if a DMEPOS
most appropriate descriptor of the service (e.g.,         billing personnel are informed of the different          supplier is billing for items or services that are no
billing for a more expensive piece of equipment           payment rules of all the Federal, State, and private     longer medically necessary, the supplier is
when a less expensive piece of equipment is               health care programs it bills. The supplier should       financially responsible for remitting any
provided).                                                be aware that billing for items or services furnished    overpayments relating to those items or services.
   37 Unbundling items or supplies involves billing       substantially in excess of the supplier’s usual          The OIG recommends that if a DMEPOS supplier
for individual components when a specific HCFA            charges may result in exclusion and other                is providing the same items or supplies to a patient
Common Procedure Coding System (HCPCS) code               sanctions. See 42 U.S.C. 1320a–7(b)(6)(A). See also      on a regular basis, it may periodically want to
provides for the components to be billed as a unit        OIG Ad. Op. 98–8 (1998).                                 contact the treating physician or other authorized
(e.g., providing a wheelchair and billing the                44 This practice, which constitutes                   person to confirm that the items or supplies
individual parts of the wheelchair, rather than the       overulitization, involves providing and/or billing       continue to be medically necessary. Such contact
wheeelchair as a whole).                                  for substantially more items or supplies that are        with the physician’s office should be documented.
   38 The DMEPOS supplier must indicate on the                                                                        48 This practice involves a DMEPOS supplier
                                                          reasonable and necessary for the needs of each
Medicare claim form, through the use of modifiers,        individual patient. The OIG recognizes that              delivering to the patient, and/or billing the payor
whether the item provided is new or used. The             DMEPOS suppliers cannot make medical necessity           for, items or supplies that have not yet been ordered
modifier for providing new equipment is ‘‘NU.’’           determinations. The medical need for an item must        by the treating physician or other authorized
The modifies for providing used equipment is              be determined by the physician or other authorized       person. Medicare requires written orders for certain
‘‘UE.’’ A knowing failure to correctly document the       person who is treating the patient. However, the         items before delivery. See, e.g., 42 CFR 410.38.
item provided would constitute falsifying                 DMEPOS supplier must ensure that the patient’s              49 This practice invovles supplying false

information on the claim form and many constitute         condition meets coverage, payment and utilization        information to be included on the claim form, the
a violation of the False Claims Act. See 31 U.S.C.        criteria as established in the payor’s medical           CMN, or other accompanying documentation. The
3729.                                                     policies. If the DMEPOS supplier is providing and/                                                   Continued
36374                            Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

   • Completing portions of CMNs                            • Providing incentives to actual or                       • Co-location of DMEPOS items and
reserved for completion only by the                       potential referral sources (e.g.,                         supplies with the referral source; 64
treating physician or other authorized                    physicians, hospitals, patients, skilled                    • Non-compliance with the Federal,
person; 50                                                nursing facilities, home health agencies                  State and private payor supplier
   • Altering medical records; 51                         or others) that may violate the anti­                     standards; 65
   • Manipulating the patient’s                           kickback statute or other similar Federal                   • Providing false information on the
diagnosis in an attempt to receive                        or State statute or regulation; 58                        Medicare DMEPOS supplier enrollment
improper payment; 52                                        • Compensation programs that offer                      form; 66
   • Failing to maintain medical                          incentives for items or services ordered                    • Not notifying the National Supplier
necessity documentation; 53                               and revenue generated; 59                                 Clearinghouse in a timely manner of
   • Inappropriate use of place of service                  • Joint ventures between parties, one                   changes to the information previously
codes; 54                                                 of whom can refer Medicare or                             provided on the DMEPOS supplier
   • Cover letters that encourage                         Medicaid business to the other; 60                        enrollment form; 67
physicians to order medically                               • Billing for items or services                           • Misrepresenting a person’s status as
unnecessary items or services; 55                         furnished pursuant to a prohibited                        an agent or representative of
   • Improper use of the ZX modifier; 56                  referral under the Stark physician self­                  Medicare; 68
   • Routine waiver of deductibles and                    referral law; 61                                            • Knowing misuse of a supplier
coinsurance; 57                                             • Improper telemarketing practices; 62                  number, which results in improper
                                                            • Improper patient solicitation                         billing; 69
information reported on these documents should            activities and high-pressure marketing                      • Failing to meet individual payor
accurately reflect the patient’s information,             of noncovered or unnecessary                              requirements; 70
including medical information, and the items or
services ordere by the treating physician or other
                                                          services; 63
authorized person and provided by the DMEPOS                                                                        initiatives and activities designed to maximize
supplier. See, e.g., 18 U.S.C. 1035, which provides       as well as to any other health insurance program          business growth and patient retention. Many cases
criminal penalties for falsifying information on          requiring deductibles and coinsurance. See                against DMEPOS suppliers have involved the
such documentation.                                       discussion in section II.A.3.j and accompanying           DMEPOS supplier giving the beneficiary free gifts
   50 This practice involves not completing the CMN       notes.                                                    such as angora underwear, microwaves and air
                                                             58 Examples of arrangements that may run afoul         conditioners in exchange for providing and billing
in compliance with Medicare regulations (i.e.,
                                                          of the anti-kickback statute include practices in         for unnecessary items. Any marketing information
sections B and D should never be completed by the
                                                          which a DMEPOS supplier pays a fee to a physician         offered by the DMEPOS supplier should be clear,
supplier). Instructions for completing the CMN can
                                                          for each CMN the physician signs, provides free           correct, non-deceptive, and fully informative. See
be found on the back of the form. See Medicare                                                                      discussion in section II.A.5 and accompanying
Carriers Manual, section 3312, which provides             gifts to physicians for signing CMNs, provides
                                                          inducements to beneficiaries, and/or provides items       notes.
instructions on how to complete the CMN and the                                                                        64 In this situation, a physician allows a DMEPOS
CMPs that may be assessed for improper                    or services for free or below fair market value to
                                                          providers or beneficiaries of Federal health care         supplier to stock inventory (the storage space may
completion of the CMN. See also 42 U.S.C.
                                                          programs. See 42 U.S.C. 1320a–7a(a)(5); 42 U.S.C.         or may not be rented by the DMEPOS supplier) in
1395m(j)(2); section II.A.3.c and accompanying
                                                          1320a–7b(b); 60 FR 40847 (August 10, 1995). See           a physician’s office. When such items and supplies
notes for further discussion on CMNs. Such
                                                          also discussion in section II.A.4 and accompanying        are dispensed to the patient, Medicare is then
conduct may also result in liability under civil and
                                                          notes.                                                    billed. Although such arrangements are not
criminal laws.
                                                             59 Compensation programs that offer incentives         prohibited per se, the OIG believes that such
   51 This practice involves falsifying information on
                                                          for items or services ordered or the revenue they         arrangements may potentially raise anti-kickback
a patient’s medical records to justify reimbursement                                                                and self-referral issues, particularly when the
for an item or service.                                   generate may lead to the ordering of medically
                                                          unnecessary items or supplies and/or the                  DMEPOS supplier pays the physician an amount
   52 This practice involves altering the treating
                                                          ‘‘dumping’’ of such items or supplies in a facility       above fair market value to rent the space.
physician’s or other authorized person’s diagnosis                                                                     65 A DMEPOS supplier should have appropriate
in an attempt to receive reimbursement for a              or in a beneficiary’s home (e.g., mail order supply
                                                          companies that continue to send the patient               personnel acknowledge they have reviewed and
particular item or service. A DMEPOS supplier                                                                       will abide by the Medicare supplier standards. In
                                                          supplies when the supplies are no longer medically
should not claim the patient has a particular                                                                       addition, a DMEPOS supplier should ensure it is
                                                          necessary).
medical condition in order to qualify for an item for        60 Equally troubling to the OIG is the proliferation   meeting individual State and private payor supplier
which the patient would not otherwise qualify.                                                                      standards. See 42 CFR 424.57 for the Medicare
   53 This practice involves failing to ensure that the
                                                          of business arrangements that may violate the anti­
                                                          kickback statute or other similar Federal and State       supplier standards.
medical necessity documentation requirements for                                                                       66 Criminal penalties may be imposed against an
                                                          statute or regulation. Such arrangements are
the item or service billed are properly met (e.g.,                                                                  individual who knowingly and willfully makes or
                                                          generally established between those in a position to
failing to maintain the physician orders or CMNs                                                                    causes to be made any false statements or
                                                          refer business, such as physicians, and those
or failing to ensure that CMNs contain adequate and       providing items or services, such as DMEPOS               representations of a material fact in any application
correct information). See Medicare Carriers Manual,       suppliers, for which a Federal health care program        for any benefit or payment under a Federal health
section 4105.2 for evidence of medical necessity.         pays. Sometimes established as ‘‘joint ventures,’’        care program. See 42 U.S.C. 1320a-7b(a)(1). See also
See also sections II.A.3.b and II.A.3.c regarding         these arrangements may take a variety of forms. The       31 U.S.C. 3729(a) (‘‘any person who * * *
physician orders and CMNs, respectively.                  OIG currently has a number of investigations and          knowingly makes, uses, or causes to be made or
   54 This practice involves indicating on the claim
                                                          audits underway that focus on such areas of               used, a false record or statement to get a false or
form that the place of service is a location other        concern. The OIG has also issued a Special Fraud          fraudulent claim paid or approved by the
than where the service was provided. For example,         Alert on Joint Venture Arrangements. This Special         Government * * * is liable to the United States
the patient resides in a skilled nursing facility         Fraud Alert can be found at 59 FR 65372 (December         Government for a civil penalty of not less than
(SNF) and a DMEPOS supplier submits a claim with          19, 1994) or on the Internet at http://                   $5,000 and not more than $10,000, plus 3 times the
the place of service as the patient’s home. Provided      www.dhhs.gov/progorg/oig.                                 amount of damages which the Government sustains
that the DMEPOS items or services are ordered,               61 Under the Stark physician self-referral law, if     because of the act of that person * * *’’)
provided, reasonable and necessary given the              a physician (or an immediate family member of
                                                                                                                       67 By signing the DMEPOS supplier enrollment

clinical condition of the patient, the items or           such physician) has a prohibited financial                application, a DMEPOS supplier certifies it will
services may be covered if the beneficiary resides        relationship with a DMEPOS supplier, the                  notify the Medicare contractor of any changes in its
at home. However, such items may not be covered           physician may not make a referral to the DMEPOS           enrollment information within 30 days of the
if the beneficiary resides in a SNF. See Medicare         supplier and the DMEPOS supplier may not bill for         effective date of the change.
Carriers Manual, section 2100.3 for the definition        furnishing DMEPOS items or supplies for which                68 It is unlawful for a DMEPOS supplier to
of a beneficiary’s home.                                  payment may be made under the Federal health              represent itself as a Medicare representative. See 42
   55 See discussion in section II.A.3.m.                 care programs. See 42 U.S.C. 1395nn.                      U.S.C. 1320b-10.
   56 This practice involves the improper use of the         62 See 42 U.S.C. 1395m(a)(17) or Pub.L. 103–432,          69 This practice may involve, but is not limited to,

ZX modifier, relating to maintaining medical              section 132(a) for the prohibition on telemarketing.      using another DMEPOS supplier’s billing number.
necessity documentation. See discussion in section        See also discussion in section II.A.5 and                    70 A DMEPOS supplier should be aware of the
II.A.3.l.                                                 accompanying notes.                                       requirements of any payor they bill, especially in
   57 Throughout this document, the term                     63 The DMEPOS supplier should not utilize              those situations where there is a primary and
‘‘deductibles and coinsurance’’ refers to Medicare        prohibited or inappropriate conduct to carry out its      secondary payor.
                                  Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                                                  36375

  • Performing tests on a beneficiary to                  Additional risk areas should be assessed             provided and billed to a Federal or
establish medical necessity; 71                           by the DMEPOS supplier and                           private health care program.81 Because
  • Failing to refund overpayments to a                   incorporated into its written policies               the DMEPOS supplier is responsible for
health care program; 72                                   and procedures and training programs                 producing documentation upon request,
  • Failing to refund overpayments to                     developed as part of its compliance                  the DMEPOS supplier may want to send
patients; 73                                              program.                                             a written notice to its clients who write
  • Improper billing resulting from a                       The OIG believes sound operating                   orders and refer patients concerning
lack of communication between the                         policies are essential to all DMEPOS                 payors’ documentation requirements.
DMEPOS supplier, the physician, and                       suppliers, regardless of size. The OIG                  As a preliminary matter, the OIG
the patient; 74                                           recommends that small DMEPOS                         recognizes that physicians and other
  • Improper billing resulting from a                     suppliers focus on the risk areas most               authorized persons must be able to
lack of communication between                             potentially problematic to its business              order any items or services that they
different departments within the                          operations. The OIG recognizes some                  believe are appropriate for the treatment
DMEPOS supplier; 75 and                                   small DMEPOS suppliers may not have                  of their patients. However, Medicare
  • Employing persons excluded from                       the resources to independently develop               and other Government and private
participation in Federal health care                      a comprehensive set of written policies              health care plans will only pay for those
programs.76                                               and procedures pertaining to such risk               services that are covered and that meet
  A DMEPOS supplier’s prior history of                    areas. In this case, the OIG recommends              the appropriate medical necessity
noncompliance with applicable statutes,                   that the small DMEPOS supplier create                standards (e.g., ordered, provided,
regulations, and Federal, State or private                a manual that is accessible to all                   reasonable, necessary, and meeting
health care program requirements may                      employees. Such a manual should                      criteria established by medical review
indicate additional types of risk areas                   contain the specific statutes,                       policies). ‘‘No payment may be made
where the DMEPOS supplier may be                          regulations, and DMERC instructions                  under Part A or Part B for any expenses
vulnerable and that may require policies                  and bulletins that address the DMEPOS                incurred for items or services * * *
and procedures to prevent recurrence.77                   supplier’s identified risk areas. The goal           which are not reasonable and necessary
                                                          of this manual is to provide employees               for the diagnosis or treatment of an
   71 E.g., Medicare does not permit DMEPOS               direction so they can properly address               illness or injury or to improve the
suppliers to perform oxygen tests (e.g., oximetry         any concerns/issues/questions that may               functioning of a malformed body
tests and arterial blood gas tests) to qualify patients   arise.
for oxygen and oxygen supplies. See Medicare                                                                   member.’’ 82 Therefore, DMEPOS
Coverage Issues Manual, section 60–4. See also            3. Claims Development and Submission                 suppliers should be aware that Medicare
discussion in section II.A.3.o.                                                                                may deny payment for an item or
   72 An overpayment is the amount of money               a. Medical Necessity                                 service that the treating physician or
received in excess of the amount due and payable
under a health care program. Examples of
                                                             The OIG recommends that the                       other authorized person believes is
overpayments include, but are not limited to,             DMEPOS supplier’s compliance                         appropriate, but which does not meet
instances where a DMEPOS supplier is: (i) paid            program communicate to physicians                    the Medicare coverage criteria or where
twice for the same service, for the same beneficiary;     and other persons authorized to order                the documentation does not support
or (ii) paid for services that were provided but not
ordered by the treating physician or other
                                                          items and services that claims submitted             that the item or service was reasonable
authorized person. The OIG strongly recommends            for items and services will only be paid             and necessary for the patient. The OIG
that the DMEPOS supplier institute procedures to          if the item or service is ordered,                   recommends that the DMEPOS supplier
detect overpayments and to promptly remit such            provided, covered, reasonable and                    advise its clients that claims for items or
overpayments to the affected payor. See 42 U.S.C.
1320a-7b(a)(3). See also 18 U.S.C. 669 and 31 U.S.C.
                                                          necessary for the patient, given his or              services submitted for Federal, State or
3729(a)(7).                                               her clinical condition. The DMEPOS                   private payor reimbursement must meet
   73 If a patient is also due money when a DMEPOS        suppliers should take all reasonable                 program requirements 83 or the claims
supplier identifies an overpayment to a health care       steps to ensure they are not submitting              may be denied.
program, the DMEPOS supplier should make a                claims for services that are not: (i)                   The DMEPOS supplier should take
prompt refund to the patient. See 42 U.S.C.
1395m(j)(4) on limitation of patient liability for        covered; (ii) reasonable; and (iii)                  steps to ensure compliance with the
non-assigned claims that are denied due to medical        necessary.78 The DMEPOS suppliers                    applicable statutes, regulations and the
necessity. See also 42 U.S.C. 1395pp(h) on                must keep the treating physician’s or                requirements of Federal, State and
limitation of patient liability for assigned claims       other authorized person’s signed and                 private health plans. The OIG
that are denied due to medical necessity.
   74 A lack of communication between the DMEPOS
                                                          dated order or CMN on file for all                   recognizes that DMEPOS suppliers do
supplier, physician, and patient may result in the        DMEPOS items and services.79 Upon a                  not and cannot treat patients or make
DMEPOS supplier inappropriately billing for items         payor’s request, the DMEPOS supplier                 medical necessity determinations.
or supplies (e.g., supplies for an on-going condition     must be able to provide documentation,               However, the DMEPOS supplier must
or rental equipment that are no longer medically
necessary). See discussion in section II.A.3.n.
                                                          such as physician orders, completed                  take steps to ensure that the
   75 A lack of communication between the different       original CMNs,80 proof of delivery,                  beneficiary’s condition meets coverage,
departments of a DMEPOS supplier may result in            written confirmation of verbal orders                payment and utilization criteria
the DMEPOS supplier filing incorrect claims and/          and any other documentation to support               established in medical policies before it
or equipment delivery problems.                           the medical necessity of an item or                  submits a claim to Federal, State or
   76 This involves hiring or contracting with

individuals or entities who have been excluded
                                                          service the DMEPOS supplier has                      private health plans. In order to help
from participation in Federal health care programs
                                                            78 Seenote 31.                                       81 In order to ensure correct reimbursement, the
or any other Federal procurement or non­
procurement program. See section II.F.2.                    79 SeeMedicare Carrier Manual, section 3312. See   payor may conduct a post-payment audit of a
   77 ‘‘Recurrence of misconduct similar to that          also Medicare Carrier Manual, section 4105.2         DMEPOS supplier’s claims. Such audits may
which an organization has previously committed            regarding what information must be included on       require that the DMEPOS supplier submit
casts doubt on whether it took all reasonable steps       the physician’s order.                               documentation to substantiate that the items or
to prevent such misconduct’’ and is a significant           80 An original CMN is that in which Section B      services were ordered by the treating physician or
factor in the assessment of whether a compliance          was completed by the treating physician or other     other authorized person, provided, covered,
program is effective. See United States Sentencing        authorized person and contains the original          reasonable and necessary. See 42 CFR 424.5(a)(6).
                                                                                                                 82 See 42 U.S.C. 1395y(a)(1)(A).
Commission Guidelines, Guidelines Manual, 8A1.2,          signature of the treating physician or other
Application Note 3(k)(iii).                               authorized person.                                     83 See note 31.
36376                           Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

ensure compliance, the OIG                              receive a signed CMN from the treating                DMEPOS supplier’s written policies and
recommends that DMEPOS supplier                         physician or other authorized person.                 procedures on completing CMNs should
personnel understand the coverage and                   Currently, CMNs are required for                      reflect these standards.
payment criteria of each payor they bill.               Medicare reimbursement for fourteen                      The DMEPOS supplier should take all
To help aid supplier personnel, the                     items. 86 The CMN must be retained in                 reasonable steps to ensure that each
DMEPOS supplier’s compliance officer                    the DMEPOS supplier’s records before it               section of the CMN is completed in
may want to create a clear,                             can submit a claim for payment to the                 accordance with the above guidelines.
comprehensive summary of the                            Medicare program. Although faxed                      The OIG recommends that the DMEPOS
‘‘medical necessity’’ standards or                      CMNs are permitted in order to submit                 supplier’s written policies and
coverage criteria and applicable rules of               the claim, the DMERCs have the                        procedures, at a minimum, provide that
the various Government and private                      authority to request the original CMN                 the DMEPOS supplier:
plans. This summary should be                           from the DMEPOS supplier at any                          • Does not forward blank CMNs to
disseminated and explained to the                       time.87                                               the treating physician or other
appropriate DMEPOS supplier                                Each CMN has four sections: A, B, C,               authorized person for signature;
personnel.                                              and D. Section A may be completed by                     • Does not complete section B
  We also recommend that DMEPOS                         the DMEPOS supplier. Section B may                    (Medical Necessity) of the CMN;
suppliers formulate internal control                    not be completed by the DMEPOS                           • Does not alter or add any
mechanisms through their written                        supplier.88 Section B may only be                     information on the CMN after receiving
policies and procedures to ensure the                   completed by the treating physician, a                the completed and signed CMN from the
medical necessity of the items or                       non-physician clinician involved in the               physician or other authorized person; 92
services they provide. Such policies and                care of the patient or a physician
procedures may include periodic claim                                                                            • Does not sign the CMN for the
                                                        employee who is knowledgeable about
reviews, both prior and subsequent to                                                                         treating physician or other authorized
                                                        the patient’s treatment. If section B is
billing for items and services. Such a                                                                        person;
                                                        completed by a physician’s employee,
procedure will verify that patients are                 the section must be reviewed by the                      • Does not urge physicians or other
receiving and the DMEPOS supplier is                    treating physician or other person                    authorized persons to order equipment
being paid for items and/or services that               authorized to sign section D of the                   or supplies that exceed what is
are ordered, provided, covered,                         CMN 89 to ensure the information’s                    reasonable and necessary for the patient;
reasonable and necessary. The DMEPOS                    accuracy. Section C must be completed                    • Does not deliver an item that
supplier may choose to incorporate this                 by the DMEPOS supplier prior to the                   requires a written order from the
claims review function into pre-existing                CMN being furnished to the treating                   treating physician or other authorized
quality assurance mechanisms.                           physician or other authorized person for              person prior to receiving the written
                                                        signature.90 Section D is the attestation             order; 93
b. Physician Orders                                                                                              • Does not submit a claim for
                                                        statement and may only be signed by
   The DMEPOS supplier’s written                        the treating physician or other person                DMEPOS items or services prior to
policies and procedures should state                    authorized to sign section D.91 The                   receiving a written order or CMN from
that the DMEPOS supplier will not bill                                                                        the treating physician or other
for an item or service unless and until                 Services, 64 FR 1813 (January 12, 1999). Special      authorized person;
it has been ordered by the treating                     Fraud Alerts are available on the OIG website.           • Does not submit a claim for
                                                           86 Items or services requiring CMNs are as
physician or other authorized person.                                                                         DMEPOS items or services until the
                                                        follows: Home oxygen therapy (HCFA form 484);
For all Medicare reimbursed DMEPOS                      Hospital beds (HCFA form 841); Support surfaces       CMN is properly and correctly
items or services, the DMEPOS supplier                  (HCFA form 842); Motorized wheelchairs (HCFA          completed by the treating physician or
must receive a written order from the                   form 843) (Section C continuation, HCFA form 854);    other authorized person;
                                                        Manual wheelchairs (HCFA form 844) (Section C
patient’s treating physician or other
                                                        continuation, HCFA form 854); Continuous positive        • Maintains completed and signed
authorized person. Such written order                   airway pressure (CPAP) devices (HCFA form 845);       CMNs in its files;
must be received prior to billing                       Lymphedema pumps (pneumatic compression                  • Consults with the treating physician
Medicare. When the DMEPOS supplier                      devices) (HCFA form 846); Osteogenesis stimulators
                                                                                                              or other authorized person who signed
receives a verbal order, the DMEPOS                     (HCFA form 847); Transcutaneous electrical nerve
                                                        stimulators (TENS) (HCFA form 848); Seat lift         the CMN when there is a question on
supplier should document the verbal                     mechanisms (HCFA form 849); Power operated            the order;
order and must have the treating                        vehicles (HCFA form 850); Infusion pumps (HCFA           • Properly complete sections A and C
physician or other authorized person                    form 851); Parenteral nutrition (HCFA form 852);
                                                                                                              of the CMN and then forward the CMN
confirm it in writing prior to billing.                 and Enteral nutrition (HCFA form 853).
                                                           87 See HCFA Program Memorandum B–99–23             to the treating physician or other
   The written policies and procedures                  (April 1999).                                         authorized person for his/her review,
should also state, for items requiring a                   88 A supplier who knowingly and willfully
                                                                                                              information, and signature; and
written order prior to delivery, that the               completes section B of the form is, at a minimum,
                                                        subject to a CMP of up to $1,000 for each form or
                                                                                                                 • Only submit claims for services that
order must be received by the DMEPOS
                                                        document completed in such manner. See 42 U.S.C.      the treating physician or other
supplier before it delivers the                         1395m(j)(2). That supplier may also face civil and    authorized person attests in section D
equipment to the patient and before it                  criminal liability.                                   are ordered and medically necessary for
bills the payor.84                                         89 See HCFA Program Memorandum B–98–47
                                                                                                              the patient.
                                                        (November, 1998), which discusses who is
c. Certificate of Medical Necessity 85                  authorized to sign section D of the CMN.
                                                           90 A supplier who knowlingly and willfully fails   Signature and date stamps are not acceptable. See
  For some DMEPOS items and                                                                                   Medicare Carriers Manual, section 3312.
                                                        to include, in section C, the fee schedule amount
services, the DMEPOS supplier must                      and the supplier’s charge for the equipment or          92 There have been many investigations centering

                                                        supplies being furnished may be subject to a CMP      on DMEPOS suppliers who alter information in
  84 See 42 CFR 410.38.                                 up to $1,000 for each form or document so             order to affect their reimbursement (e.g., altering
  85 As defined in 42 U.S.C. 1395m(j)(2)(B). See also   distributed. See 42 U.S.C. 1395m(j)(2).               diagnosis code, altering HCPCS code of service
OIG Special Fraud Alert regarding Physician                91 Physicians or persons authorized to sign        provided).
Liability for Certifications in the Provision of        section D (see note 89), should only sign CMNs in       93 See 42 U.S.C. 1395m(a)(11)(B). See also 42 CFR

Medical Equipment and Supplies and Home Health          which sections A-C are completed and correct.         410.38.
                              Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                                                 36377

d. Billing                                           f. Valid Supplier Numbers                             that it will not charge Medicare
                                                        The DMEPOS supplier should ensure                  beneficiaries more than the amounts
  The DMEPOS supplier should                                                                               allowed under the Medicare fee
provide in its written policies and                  that appropriate personnel are
                                                     knowledgeable in (1) completing the                   schedule, including coinsurance and
procedures that it will only submit to                                                                     deductibles. If the beneficiary pays the
                                                     HCFA 855S supplier application; 97 and
Medicare or other Federal, State or                                                                        DMEPOS supplier prior to the DMEPOS
                                                     (2) complying with the Federal
private payor health care plans claims               requirements of 42 CFR 424.57(e) for                  supplier submitting the claim, the
that are properly completed, accurate,               updating supplier number applications.                DMEPOS supplier should ensure it is
and correctly identify the item or                      The written policies and procedures                not charging the beneficiary more than
service ordered by the treating                      should state that the DMEPOS supplier                 the coinsurance on the allowed amount
physician or other authorized person                 should not bill any other Federal, State              under the fee schedule. In the event that
and furnished to the patient. Also, prior            or private payor health care plan                     the DMEPOS supplier collects excess
to submitting the claim, the DMEPOS                  without obtaining the necessary billing               payments from a Medicare beneficiary,
supplier should take all reasonable steps            numbers and that the billing numbers                  it should have mechanisms in place to
to ensure the item or service being                  will be used correctly.98                             promptly refund the overpayment to the
claimed was provided, covered,                          Prior to applying for a valid supplier             beneficiary. The DMEPOS supplier
reasonable and necessary.                            number, a DMEPOS supplier providing                   should be knowledgeable about the
  The written policies and procedures                services to Medicare beneficiaries must               Medicare rules and instructions for
should also clarify that a DMEPOS                    meet the supplier standards.99 The                    accepting assignment and receiving
supplier cannot submit bills or receive              DMEPOS supplier should take all                       direct payment from beneficiaries for
                                                     affirmative steps to ensure that no                   items or services.
payment for drugs used in conjunction
                                                     claims for Medicare reimbursement are
with DMEPOS, unless the DMEPOS                                                                                If a DMEPOS supplier chooses not to
                                                     submitted prior to the DMEPOS
supplier is licensed to dispense the                                                                       accept Medicare assignment, it is still
                                                     supplier being issued a valid supplier
drug.94                                              number by the National Supplier                       responsible for submitting claims to
e. Selection of HCPCS Codes                          Clearinghouse. A DMEPOS supplier                      Medicare on behalf of beneficiaries.102
                                                     should not have more than one                            If the DMEPOS supplier chooses to
   The DMEPOS supplier’s written                     Medicare supplier number unless it is                 utilize a billing agent, the DMEPOS
policies and procedures should state                 appropriate to identify subsidiary or                 supplier should ensure it is complying
that only the HCPCS code that most                   regional entities under the supplier’s                with all of the relevant statutes and
accurately describes the item or service             ownership or control.100                              requirements governing such an
ordered and provided should be billed.                                                                     arrangement.103 The OIG strongly
                                                     g. Mail Order Suppliers
The OIG views knowing ‘‘upcoding’’                                                                         recommends that the DMEPOS supplier
(i.e., the selection of a code to maximize              We recommend that any DMEPOS
                                                     supplier who engages in the mail order                coordinate closely with the billing
reimbursement when such a code is not                                                                      company to establish compliance
the most appropriate descriptor of the               supply business clearly articulate its
                                                     protocol for this segment of its business             responsibilities. Once the
service) as raising, among other things,                                                                   responsibilities have been clearly
false claims issues under the Civil False            in the company’s written policies and
                                                     procedures.                                           delineated, they should be formalized in
Claims Act.95 To ensure code accuracy,                                                                     the written contract between the
                                                        Mail order supplies should only be
the OIG recommends that the DMEPOS                                                                         DMEPOS supplier and the billing agent.
                                                     delivered in accordance with the
supplier include a requirement in its                                                                      The OIG recommends that the contract
                                                     treating physician’s or other authorized
policies and procedures that the codes               person’s orders. Regularly shipping                   enumerate those functions that are
be reviewed (random sample or certain                supplies without such orders may lead                 shared responsibilities and those that
codes) by individuals with technical                 to providing supplies substantially in                are the sole responsibility of either the
expertise in coding before claims                    excess of the patient’s needs.101 We also             billing agent or the DMEPOS supplier.
containing such codes are submitted to               recommend that the supplier utilize a
the affected payor. If a DMEPOS                                                                            i. Liability Issues
                                                     tracking system so it will be able to
supplier has questions regarding the                 determine whether or not the patient                     The OIG recommends that DMEPOS
appropriate code to be used, it should               received the supplies and will be able                suppliers avoid submitting claims for
contact the Statistical Analysis Durable             to track the location of an item or                   items or services that the DMEPOS
Medical Equipment Carrier’s                          supply at any given time.                             supplier believes are not covered by
(SADMERC) HCPCS coding help line.96                                                                        Medicare. However, HCFA does permit
                                                     h. Assignment
                                                                                                           a DMEPOS supplier to submit a claim
  94 See  Medicare Program Memoranda B–98–6            If a DMEPOS supplier accepts
                                                                                                           for an item or service that the DMEPOS
(February, 1998) and B–98–18 (May, 1998).            Medicare assignment, its written
   95 See 31 U.S.C. 3729, which provides for the                                                           supplier believes is not covered if (i) the
                                                     policies and procedures should state
imposition of penalties of $5,000 to $10,000 per                                                           beneficiary insists that the DMEPOS
false claim, plus up to three times the amount of       97 By signing the certification statement on the
                                                                                                           supplier submit the claim, and (ii) the
damages suffered by the Federal Government                                                                 DMEPOS supplier notes on the claims
because of the false claim.                          enrollment application, the applicant agrees that
   96 The phone number for the SADMERC’s HCPCS
                                                     he/she has read, understood, meets and will           its belief that the service is noncovered
                                                     continue to meet the supplier standards and will be   and that it is being submitted at the
coding help line is 803–736–6809. The hours of
                                                     disenrolled from the program if any standards are
operation are Monday through Friday from 9:00 am
                                                     not met or violated.
                                                                                                           beneficiary’s insistence (e.g., submitted
to 4:00 pm, EST. Based on the information provided      98 E.g., if a DMEPOS supplier has more than one    for a Medicare determination of
by the DMEPOS supplier, the SADMERC will aid
the DMEPOS supplier in choosing the most             location, the supplier number of the location that
                                                     filled the physician’s or other authorized person’s     102 See
                                                                                                                   42 U.S.C. 1395w–4(g)(4).
accurate code for the item or service ordered and
supplied. However, the DMEPOS supplier should        order will be used on the claim form.                   103 See
                                                                                                                   42 U.S.C. 1395u(b)(6); 42 CFR 424.73;
                                                        99 See 42 CFR 424.57.
be aware that assigning a HCPCS code to an item                                                            Medicare Carriers Manual, section 3060. See also
                                                        100 See 42 U.S.C. 1395m(j)(1)(D).                  OIG Ad. Op. 98–1 (1998) and OIG Ad. Op. 98–4
or service does not necessarily guarantee
reimbursement.                                          101 See note 44.                                   (1998).
36378                             Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

coverage and/or to obtain a denial                       liability issues in its written policies               k. Capped Rentals
notice in order to bill other insurers).104              and procedures.                                           The DMEPOS supplier’s written
   A DMEPOS supplier or Medicare                                                                                policies and procedures should address
                                                         j. Routine Waiver of Deductibles and
beneficiary is not liable for payment on                                                                        Government and private payor
                                                         Coinsurance
assigned claims where the beneficiary                                                                           requirements when providing rental
did not know, and could not reasonably                      Routine waivers of deductibles and                  equipment to beneficiaries (e.g., the
have been expected to know, that the                     coinsurance may result in false claims,                purchase option 112 and servicing and
payment for such services would not be                   CMPs for inducements to beneficiaries,                 maintenance 113). The DMEPOS supplier
made.105 However, when the DMEPOS                        and violations of the anti-kickback                    must offer a purchase option to
supplier knew, or could have been                        statute or similar Federal or State statute            beneficiaries during the 10th continuous
expected to know, the items or services                  or regulations.108 In addition to the                  rental month.114 The DMEPOS supplier
would be denied, the liability for                       potential problems regarding kickbacks,                should clearly, accurately, and non­
improperly paid items or services rests                  false claims, and CMPs, the OIG has                    deceptively discuss the pros and cons of
with the DMEPOS supplier.106                             programmatic concerns when DMEPOS                      the different options with the
   In order to protect itself from financial             suppliers routinely waive deductibles                  beneficiary. If the beneficiary does not
responsibility in such situations (i.e.,                 and coinsurance. When DMEPOS                           accept the purchase option, the
situations in which the beneficiary is                   suppliers forgive financial obligations                DMEPOS supplier must continue to
insisting that a claim be submitted to                   for reasons other than genuine financial               provide the item. After the 15th
Medicare notwithstanding the DMEPOS                      hardship of a particular patient, they                 continuous month of receiving rental
supplier’s belief that Medicare does not                 may be inducing the patient to use items               payments from Medicare, providing the
cover the service), the DMEPOS                           or services that are unnecessary, simply               item or service continues to be
supplier must inform the patient prior                   because they are free. Such usage may                  medically necessary, the DMEPOS
to furnishing the item or service of the                 also lead to overutilization. DMEPOS                   supplier must continue to provide the
DMEPOS supplier’s belief that the claim                  suppliers are permitted to waive the                   item without charge to the beneficiary
to Medicare will be denied. In this                      Medicare coinsurance amounts for cases                 or Medicare.
situation, the DMEPOS supplier should                    of financial need.109 We recommend                        However, the DMEPOS supplier may
ask the patient to sign a written                        that the DMEPOS supplier develop and                   submit additional claims for the
notice.107 The written notice must be in                 maintain written criteria documenting                  maintenance and servicing fees
writing, must clearly identify the                       its policy for determining financial need              associated with the rental item.115 The
particular item or service, must state                   and consistently apply this criteria to all            DMEPOS supplier should ensure it is
that the payment for the particular item                 cases.110 A good faith effort must be                  performing basic safety and operational
or service likely will be denied, and                    made to collect deductibles and                        function checks after use by each
must give the reason(s) for the belief                   coinsurance.111                                        patient, and is performing routine and
that payment is likely to be denied. It is                                                                      preventative maintenance on
the beneficiary’s decision whether or                       The DMEPOS supplier’s written
                                                         policies and procedures should state                   equipment. The DMEPOS supplier must
not to sign the written notice. If the                                                                          ensure it has qualified staff or
beneficiary does sign the written notice,                that it will not routinely waive
                                                         deductibles and coinsurance for                        contractors to service, set up, and
the DMEPOS supplier should: (1)                                                                                 instruct the patient on the proper use of
include the appropriate modifier on the                  Medicare beneficiaries. The OIG
                                                         recommends that such policies and                      the equipment. The DMEPOS supplier
claim form; (2) maintain the written                                                                            should ensure it maintains current
notice in its files; and (3) be able to                  procedures should include, but not be
                                                         limited to, statements that DMEPOS                     service manuals for all the equipment it
produce the written notice to the                                                                               supplies. In addition, the OIG
DMERC, upon request.                                     supplier personnel are prohibited from:
                                                         advertising an intent to waive                         recommends that the DMEPOS
   If the DMEPOS supplier improperly                                                                            supplier’s policies and procedures
bills the beneficiary, Medicare will                     deductibles or coinsurance for Medicare
                                                         beneficiaries; advertising an intent to                establish an internal control system that
indemnify the beneficiary for any                                                                               allows the DMEPOS supplier to track
payments the beneficiary made to the                     discount services for Medicare
                                                         beneficiaries; or giving unsolicited                   the location of each piece of equipment
DMEPOS supplier, and collect the                                                                                at any given time.
indemnification amount from the                          advice to Medicare beneficiaries that
                                                         they need not pay.                                        The policies and procedures should
DMEPOS supplier as an overpayment.                                                                              also address the guidelines for
   Routine notices to beneficiaries that                   108 See 59 FR 31157 (December 19, 1994) or the
                                                                                                                determining continuous use and criteria
do no more than state that denial of                     OIG website at http://www.dhhs.gov/progorg/oig         for a new rental period.116 If a
payment is possible are not considered                   for the OIG Special Fraud Alert on Medicare            beneficiary dies during a rental period,
acceptable evidence of written notice.                   Deductibles and Copayments. See also 31 U.S.C.         the DMEPOS supplier may receive the
Notices should not be given to                           3729–3733; 42 U.S.C. 1320a–7a(a)(5); 42 U.S.C.         entire monthly rental payment.117
                                                         1320a–7b.
beneficiaries unless there is some                         109 See Medicare Carriers Manual, section 5520       However, if the DMEPOS supplier
genuine doubt regarding the likelihood                     110 What constitutes ‘‘financial need’’ varies       continues to bill for the item because it
of payment as evidenced by the reasons                   depending on the circumstances. However, the OIG       did not receive notice of the
stated on the written notice. Giving                     believes it is important that a DMEPOS supplier        beneficiary’s death until the following
notice for all claims, items or services is              make determinations of financial need on an
                                                         individualized, case by case, basis in accordance
not an acceptable practice.                              with a reasonable set of income guidelines
                                                                                                                  112 See  42 CFR 414.229(d).
                                                                                                                  113 See  42 CFR 414.229(e).
   The OIG recommends that the                           uniformly applied in all cases. The guidelines
                                                                                                                   114 DMEPOS suppliers must offer beneficiaries
DMEPOS supplier include the foregoing                    should be based on objective criteria and
                                                         appropriate for the applicable locality. It is not     the option of purchasing power-driven wheelchairs
                                                         appropriate to apply inflated income guidelines that   at the time the DMEPOS supplier first furnishes the
 104 See    Medicare Carriers Manual, section 3043.
                                                            item See 42 CFR 414.229(d)(1).
                                                         result in waivers of copayments for persons not in
 105 See    42 U.S.C. 1395pp.
                                                                                     115 See 42 CFR 414.229(e).
                                                         genuine financial need.
 106 Id.
                                                  111 See 42 CFR 413.80; Provider Reimbursement           116 See 42 CFR 414.230.
 107 See    Medicare Carriers Manual, section 7300.5.
   Manual, Part I, sections 308 and 310.                     117 See Medicare Carriers Manual, section 4105.3.
                               Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                                                 36379

month, any payments received for rental           inappropriate use of cover letters.                      supplier have the IDTFs, from which it
items the month after the beneficiary             However, the OIG is concerned that                       receives test results, submit, all raw test
dies are considered an overpayment and            cover letters may influence or direct a                  results to the treating physician for the
must promptly be refunded. The                    physician’s or other authorized person’s                 physician’s benefit, and not just a
DMEPOS supplier should create                     answers on the CMN, particularly the                     summary of the results. The written
internal mechanisms to ensure the                 questions relating to the patient’s                      policies and procedures should provide
correct rental month appears on the               medical condition.119 It is the treating                 that a DMEPOS supplier is not qualified
claim and the correct modifier is used.           physician’s or other authorized person’s                 to conduct the blood gas study or to
   In addition, the DMEPOS supplier               responsibility to determine both the                     prescribe the oxygen therapy.120
should ensure it is not submitting                medical need for, and the utilization of,                  The OIG also recommends, for patient
claims for rental equipment when the              health care services. The OIG                            safety purposes, that the rental of
beneficiary is residing in an institution.        encourages the DMEPOS supplier to                        oxygen include established maintenance
The OIG is aware that some DMEPOS                 include language in its cover letter to                  safeguards and that steps are taken to
suppliers bring DMEPOS items to                   remind treating physicians and other                     ensure the equipment is properly
beneficiaries residing in an institution,         authorized persons of their                              maintained, as maintenance is included
just prior to the beneficiary’s discharge,        responsibilities in properly completing                  in the rental price of the equipment.
in order to train the beneficiary on how          CMNs.                                                      When submitting an oxygen or oxygen
to use the item or to fit the item for the                                                                 equipment claim for reimbursement, the
beneficiary. Once the DMEPOS supplier             n. Communication                                         DMEPOS supplier must ensure it is
has trained or fitted the beneficiary, the           The OIG suggests that the DMEPOS                      complying with the payment rules.121
DMEPOS supplier should take the item              supplier create mechanisms that                          4. Anti-Kickback and Self-Referral
and deliver it to the beneficiary’s home          increase the communication among                         Concerns
on the date of discharge. As a result, the        treating physicians or other authorized
                                                  persons who refer business to the                           The DMEPOS supplier should have
DMEPOS supplier should file the claim
                                                  DMEPOS supplier, the patients, and the                   policies and procedures in place with
for this item with the date of delivery/
                                                  DMEPOS supplier. We recommend that                       respect to compliance with Federal and
date of service as the date the
                                                  such mechanisms be included in the                       State laws, including the anti-kickback
beneficiary is discharged from the
                                                  DMEPOS supplier’s written policies and                   statute, as well as the Stark physician
institution. If the DMEPOS supplier
                                                  procedures. Such mechanisms may                          self-referral law.122 Such policies should
delivers the item to the beneficiary in
                                                  include: (i) the DMEPOS supplier                         provide that:
the institution prior to the beneficiary’s                                                                    • All of the DMEPOS supplier’s
discharge to be used by the beneficiary           periodically calling the patient to ensure
                                                                                                           contracts and arrangements with actual
while in the institution, the item should         the equipment is still being used and is
                                                                                                           or potential referral sources (e.g.,
be included in the institution’s cost and         operating properly; or (ii) periodically                 physicians) are reviewed by counsel and
the DMEPOS supplier should not                    calling the treating physician to ensure                 comply with all applicable statutes and
submit the claim. The DMEPOS                      the provided items continue to be                        regulations, including the anti-kickback
supplier may not submit the claim prior           medically necessary for a patient.                       statute and the Stark physician self­
to the beneficiary’s date of discharge.              In addition, we recommend the
                                                                                                           referral law; 123
                                                  DMEPOS supplier create mechanisms to                        • The DMEPOS supplier will not
l. ZX Modifier                                    ensure communication between                             submit or cause to be submitted to
   The ZX modifier is used on the claim           different departments (e.g., sales and                   health care programs claims for patients
form to indicate that the DMEPOS                  billing) in order to prevent the filing of               who were referred to the DMEPOS
supplier is maintaining medical                   incorrect claims.                                        supplier pursuant to contracts or
necessity documentation in its files.                                                                      financial arrangements that were
Such documentation only needs to be               o. Oxygen and Oxygen Equipment
                                                                                                           designed to induce such referrals in
submitted to the DMERC upon request.                 The OIG recommends that the written
                                                                                                           violation of the anti-kickback statute or
   The DMEPOS supplier should create              policies and procedures for DMEPOS                       similar Federal or State statute or
internal mechanisms to ensure the                 suppliers furnishing oxygen state that                   regulation or that otherwise violate the
proper use of the ZX modifier. Improper           the DMEPOS supplier will ensure that                     Stark physician self-referral law;
use of the modifier may result in the             initial claims for oxygen therapy
submission of false claims. The OIG               include the written results of an arterial                 120 See   Coverage Issues Manual, section 60–4.
recommends that the DMEPOS                        blood gas study or oximetry test (on the                   121 See   42 CFR 414.226.
supplier’s written policies and                   CMN) that has been ordered and                              122 Towards this end, the DMEPOS supplier

procedures address the DMEPOS                     evaluated by the patient’s treating                      should, among other things, obtain copies of all
                                                                                                           relevant OIG regulations, Special Fraud Alerts, and
supplier’s protocol for using the ZX              physician. Further, the written policies                 Advisory Opinions (these documents are located on
modifier.118                                      and procedures should provide for the                    the Internet at http://www.dhhs.gov/progorg/oig),
                                                  DMEPOS supplier to maintain such test                    and ensure that the DMEPOS supplier’s policies
m. Cover Letters                                                                                           reflect the guidance provided by the OIG. See 42
                                                  results and any other independent
   Cover letters are commonly used by                                                                      U.S.C. 1395nn(a) for the Stark physician referral
                                                  diagnostic treatment facility (IDTF)                     laws. See also 42 U.S.C. 1320a–7b for prohibited
the DMEPOS supplier as a method of                documents supporting the patient’s                       activities under the anti-kickback statute.
communication between the DMEPOS                  medical necessity for the oxygen. The                       123 If the DMEPOS supplier questions an

supplier and the treating physician or            OIG recommends that the DMEPOS                           arrangement into which it may enter, it should
other authorized person. The cover                                                                         consider asking the OIG for an Advisory Opionion
                                                                                                           regarding the anti-kickback statute of HCFA for an
letter is not a form required or regulated          119 Encouraging physicians or other authorized
                                                                                                           Advisory Opinion regarding Stark. See 62 FR 7350
by the Government. As a result, the               persons to order unwanted items or supplies may          (February 19, 1997) and 63 FR 38,311 (July 16,
DMERCs do not base Medicare denials               result in submitting claims for items or services that   1998) for instructions on how to submit an
                                                  are not reasonable or necessary. The OIG is aware        Advisory Opinion to the OIG. These instructions
solely on what may be considered                  of instances where the DMEPOS supplier has               are also located on the Internet at http://
                                                  copied the CMN, complieted section B of the copy,        www.dhhs.gov/progorg/oig. See 63 FR 1645
  118 See relevant DMERC supplier manual(s) for   and used this completed copy as its cover letter to      (January 9, 1998) on how to submit an Advisory
guidelines on proper use.                         physicians.                                              Opinion to HCFA.
36380                          Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

  • A DMEPOS supplier does not offer                 ordered, and the financial consequences                   correct, honest, straightforward, non­
a physician or other referral source more            for Medicare as well as other payors for                  deceptive and fully informative. In
than fair market value for space rented              the items or services ordered. The OIG                    addition, all DMEPOS suppliers should
to store items or supplies (i.e.,                    recommends that if the DMEPOS                             inform their sales people of potential
consignment closet); and                             supplier services a large number of non-                  anti-kickback concerns, the
  • The DMEPOS supplier does not                     English speaking patients, it should                      telemarketing law, and the prohibition
offer or provide gifts, free services, or            ensure that its marketing materials are                   on inappropriately using references to
other incentives or things of value to               available in those other languages. The                   Social Security and Medicare. Although
patients, relatives of patients,                     DMEPOS supplier’s written policies and                    the small DMEPOS supplier may not
physicians, home health agencies,                    procedures should ensure that its                         have extensive written policies and
nursing homes, hospitals, contractors,               marketing information is clear, correct,                  procedures, every DMEPOS supplier
assisted living facilities, or other                 and fully informative.                                    should ensure that its employees are
potential referral sources for the                      Salespeople must not offer
                                                                                                               clear on what is permitted and
purpose of inducing referrals in                     physicians, patients or other potential
                                                                                                               prohibited with regard to marketing.
violation of the anti-kickback statute or            referral sources incentives, in cash or in
similar Federal or State statute or                  kind, for their business.126 Similarly,                   6. Retention of Records
regulation.124                                       they must not engage in any marketing
  Further, the OIG recommends that the               activity that either explicitly or                           The DMEPOS supplier’s compliance
written policies and procedures should               implicitly implies that Medicare                          program should provide for the
specifically reference and take into                 beneficiaries are not obligated to pay                    implementation of a records system.
account the OIG’s safe harbor                        their coinsurance or can receive ‘‘free’’                 The DMEPOS supplier should ensure
regulations, which describe those                    services.127 In addition, DMEPOS                          that records are maintained for the
payment practices that are immune from               suppliers must not promote items or                       length of time required by Federal and
criminal and administrative prosecution              services to patients or physicians that                   State law and private payors, or by the
under the anti-kickback statute.125                  are not reasonable or necessary for the                   DMEPOS supplier’s record retention
  The OIG believes all DMEPOS                        treatment of the individual patient. The                  policies, whichever is longer. This
suppliers, regardless of size, should be             OIG suggests that the DMEPOS                              system should establish policies and
concerned with potential anti-kickback               supplier’s written policies and                           procedures regarding the creation,
and Stark violations. As a result, all               procedures create internal mechanisms                     distribution, retention, storage, retrieval,
DMEPOS suppliers should be                           to avoid these situations.                                and destruction of documents.131 The
knowledgeable about, and compliant                      With respect to marketing and sales,                   three types of documents developed
with, the anti-kickback statute, the Stark           the OIG has a longstanding concern that                   under this system should include: (1) all
physician self-referral law and other                percentage compensation arrangements                      records and documentation (e.g., billing
relevant Federal and State statutes or               for sales and marketing personnel may                     and claims documentation) required
regulations.                                         increase the risk of such persons
  Although all DMEPOS suppliers are                                                                            either by Federal or State law and the
                                                     violating the anti-kickback statute.128                   program requirements of Federal, State,
responsible for ensuring compliance                  The OIG recommends that the DMEPOS
with these provisions, the OIG                                                                                 and private health plans; (2) records
                                                     supplier monitor its sales                                listing the persons responsible for
recognizes that the small DMEPOS                     representatives on a regular basis (e.g.,
supplier may not have the resources to                                                                         implementing each part of the
                                                     rotate sales staff or send a sales manager                compliance program; and (3) all records
implement the suggestions in this                    on some sales calls).
section to the same extent as a large                                                                          necessary to protect the integrity of the
                                                        The DMEPOS suppliers are prohibited
DMEPOS supplier. Therefore, the                                                                                DMEPOS supplier’s compliance process
                                                     from making unsolicited telephone
smaller DMEPOS supplier may need to                                                                            and confirm the effectiveness of the
                                                     contacts to Medicare beneficiaries.129
employ a slightly different mechanism                We suggest that the DMEPOS supplier’s                     program.132 The documentation
to ensure compliance. For example, the               written policies and procedures reflect                   necessary to satisfy the third
small DMEPOS supplier may want to                    this prohibition.                                         requirement includes, but is not limited
choose a sample of contracts or financial               The DMEPOS suppliers are also                          to: evidence of adequate employee
arrangements to review on a periodic                 prohibited from using symbols,                            training; reports from the DMEPOS
basis.                                               emblems, or names in reference to                         supplier’s hotline; results of any
                                                     Social Security or Medicare in a manner                   investigation conducted as a
5. Marketing                                                                                                   consequence of a hotline call;
                                                     that they know or should know would
   Where marketing is permitted, the                 convey the false impression that an item                  modifications to the compliance
DMEPOS supplier’s compliance                         is approved, endorsed, or authorized by                   program; self-disclosure; all written
program should require honest,                       the Social Security Administration,                       notifications to physicians and
straightforward, fully informative and               HCFA, or the Department of Health and                     payors; 133 and the results of the
non-deceptive marketing. It is in the                Human Services or that the supplier has                   DMEPOS supplier’s auditing and
best interest of patients, DMEPOS                    some connection with, or authorization                    monitoring efforts.
suppliers, physicians and health care                from, any of these agencies.130                              All DMEPOS suppliers, regardless of
programs that physicians or other                       The OIG believes marketing strategies                  size, must retain documents required by
persons authorized to order DMEPOS                   employed by all DMEPOS suppliers,                         the health plans in which they
fully understand the services offered by             regardless of size, should be clear,
the DMEPOS supplier, the items or                                                                                131 This records system should be tailored to fit
services that will be provided when                    126 See   anti-kickback statute discussion in section   the individual needs and financial resources of the
                                                     II.A.4.                                                   DMEPOS supplier.
  124 See                                               127 See discussion in section II.A.3.j.                  132The creation and retention of such documents
          42 U.S.C. 1320a–7a(a)(5), which provides
                                                        128 See e.g., 42 U.S.C. 1320a–7b(B); OIG Ad. Op.       and reports may raise a variety of legal issues, such
for CMPs for improper inducements to
beneficiaries.                                       98–10 (1998); section II.A.4.                             as patient privacy and confidentiality. These issues
  125 See 42 CFR 1001.952. Simply because an            129 See 42 U.S.C. 1395m(a)(17), Pub.L. 103–432,        are best discussed with legal counsel.
arrangement does not meet a safe harbor does not     section 132(a).                                             133 This should include notifications regarding

necessarily mean it is illegal.                         130 See 42 U.S.C. 1320b–10.                            inappropriate claims and overpayments.
                          Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                                                     36381

participate. In case of a future             DMEPOS supplier and the complexity                         Federal, State, and private payor health
Government investigation, the OIG            of the task. When a compliance officer                     care plans;
recommends that all DMEPOS suppliers         has other duties, the other duties should                     • Reviewing employees’ certifications
retain documents relating to the             not be in conflict with the compliance                     that they have received, read,
implementation of their compliance           goals.134                                                  understood, and will abide by the
programs.                                       Designating a compliance officer with                   standards of conduct;
                                             the appropriate authority is critical to                      • Developing, coordinating, and
7. Compliance as an Element of a             the success of the program, necessitating                  participating in a multifaceted
Performance Plan                             the appointment of a high-level official                   educational and training program that
   The DMEPOS supplier’s compliance          in the DMEPOS supplier with direct                         focuses on the elements of the
program should require that the              access to the DMEPOS supplier’s                            compliance program, and seeks to
promotion of, and adherence to, the          owner(s), president or CEO, governing                      ensure that all appropriate employees
elements of the compliance program be        body, all other senior management, and                     and managers are knowledgeable of, and
a factor in evaluating the performance of    legal counsel.135 The compliance officer                   comply with, pertinent Federal, State
all employees. Employees should be           should be highly enough placed in the                      and private payor health care program
periodically trained in new compliance       company so that he or she can exercise                     requirements;
policies and procedures. In addition, all    independent judgment without fear of                          • Ensuring independent contractors
managers and supervisors should:             reprisal, and so that employees will                       and agents who provide services (e.g.,
   • Discuss with all supervised             know that bringing a problem to that                       billing companies, delivery services and
employees and relevant contractors the       person’s attention is not a wasted                         sources of referrals, i.e., physicians and
compliance policies and legal                exercise. The compliance officer should                    others) to the DMEPOS supplier are
requirements applicable to their             have sufficient funding and staff to fully                 aware of the requirements of the
function;                                    perform his or her responsibilities.                       DMEPOS supplier’s compliance
   • Inform all supervised personnel         Coordination and communication are                         program with respect to coverage,
that strict compliance with these            the key functions of the compliance                        billing, marketing, and kickbacks,
policies and requirements is a condition     officer with regard to planning,                           among other things;
of employment; and                           implementing, and monitoring the                              • Coordinating personnel issues with
   • Disclose to all supervised personnel    compliance program.                                        the DMEPOS supplier’s Human
that the DMEPOS supplier will take              The compliance officer’s primary                        Resources/Personnel office (or its
disciplinary action up to and including      responsibilities should include:                           equivalent). The OIG recommends that
termination for violation of these              • Overseeing and monitoring the                         the DMEPOS supplier check the List of
policies or requirements.                    implementation of the compliance                           Excluded Individuals/Entities,137 and
   In addition to making performance of      program; 136                                               the General Services Administration’s
these duties an element in evaluations,         • Reporting on a regular basis to the                   List of Parties Excluded from Federal
the compliance officer or DMEPOS             DMEPOS supplier’s owner(s), governing                      Procurement and Nonprocurement
supplier management should include a         body, CEO, president, and compliance                       Programs 138 to ensure employees and
policy that managers and supervisors         committee (if applicable) on the                           independent contractors have not been
will be sanctioned for failing to instruct   progress of implementation, and                            excluded or debarred from participating
adequately their subordinates or for         assisting these components in                              in Federal programs.139 Depending upon
failing to detect noncompliance with         establishing methods to improve the                        State requirements or DMEPOS supplier
applicable policies and legal                DMEPOS supplier’s efficiency and                           policy, the Compliance Officer may also
requirements, where reasonable               quality of services, and to reduce the                     conduct a criminal background check of
diligence on the part of the manager or      DMEPOS supplier’s vulnerability to                         employees;
supervisor would have led to the             fraud, abuse, and waste;                                      • Assisting the DMEPOS supplier’s
discovery of any problems or violations.        • Periodically revising the program in                  financial management in coordinating
   The OIG believes all DMEPOS               light of changes in the organization’s                     internal compliance review and
suppliers, regardless of size, should        needs, and in the statutes, rules,                         monitoring activities, including annual
ensure their employees understand the        regulations, and requirements of                           or periodic reviews of departments;
importance of compliance. If the small
                                                134 E.g., companies should not choose a sales              137 The List of Excluded Individuals/Entities is an
DMEPOS supplier does not have a
                                             manager who may be pressured to achieve high               OIG-produced report available on the Internet at
formal performance evaluation                sales, which might result in a conflict with               http://www.dhhs.gov/progorg/oig. It is updated on
structure, it should informally convey       compliance goals.                                          a regular basis to reflect the status of individuals
the employee’s compliance                       135 The OIG believes that it is not advisable for the   and entities who have been excluded from
responsibilities and the importance of       compliance function to be subordinate to the               participation in all Federal health care programs
                                             DMEPOS supplier’s general counsel, comptroller or          (individuals/entities excluded before August 5,
these responsibilities.                                                                                 1997 were only excluded from participation in
                                             similar DMEPOS supplier financial officer. Free
B. Designation of a Compliance Officer       standing compliance functions help to ensure               Medicare, Medicaid, Title V and Title XX
                                             independent and objective legal reviews and                programs). The DMEPOS supplier can download
and a Compliance Committee                   financial analyses of the institution’s compliance         the List of Excluded Individuals/Entities and the
                                             efforts and activities. By separating the compliance       subsequent monthly exclusion and reinstatement
1. Compliance Officer                                                                                   supplements or can use the online search feature.
                                             function from the key management positions of
  Every DMEPOS supplier should               general counsel or chief financial officer (where the         138 The List of Parties Excluded from Federal

designate a compliance officer to serve      size and structure of the DMEPOS supplier make             Procurment and Nonprocurement programs is a
                                             this a feasible option), a system of checks and            GSA-produced report available on the Internet at
as the focal point for compliance            balances is established to more effectively achieve        http://www.arnet.bov/epls.
activities. The compliance officer           the goals of the compliance program.                          139 The OIG recognizes that a DMEPOS supplier

should be a person of high integrity.           136 For DMEPOS supplier chains, the OIG                 cannot make medical necessity determinations and
This responsibility may be the               encourages coordination with each DMEPOS                   may not be aware when a patient’s condition
                                             supplier location through the use of a headquarter’s       changes. However, a DMEPOS supplier should be
individual’s sole duty or added to other     compliance officer, communicating with parallel            aware that if it submits a claim in which an
management responsibilities, depending       positions in each facility or regional office, as          excluded physician provided the referral, Medicare
upon the size and resources of the           appropriate.                                               will deny payment.
36382                           Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

   • Independently investigating and                   believes are problematic until such time                 procedures of the compliance program,
acting on matters related to compliance,               as the issue in question has been                        as well as how to discharge their duties.
including the flexibility to design and                resolved.                                                   The committee’s responsibilities
coordinate internal investigations (e.g.,                 The OIG believes all DMEPOS                           should include:
responding to reports of problems or                   suppliers, regardless of size, should                       • Analyzing the organization’s
suspected violations) and any resulting                have a compliance officer or contact                     regulatory environment, the legal
corrective action (e.g., making necessary              who possesses a high degree of integrity,                requirements with which it must
improvements to DMEPOS supplier                        is knowledgeable about the rules,                        comply,143 and specific risk areas;
policies and practices, taking                         regulations, and policies under which                       • Assessing existing policies and
appropriate disciplinary action, etc.)                 the DMEPOS supplier operates and has                     procedures that address these risk areas
with all DMEPOS supplier departments,                  sufficient authority to exercise                         for possible incorporation into the
independent contractors, and health                    independent judgment. A small                            compliance program;
care professionals;                                    DMEPOS supplier may not have the                            • Working with appropriate DMEPOS
   • Developing policies and programs                  need or the resources to hire/appoint a                  supplier departments to develop
that encourage managers and employees                  full time compliance officer. However,                   standards of conduct and policies and
to report suspected fraud and other                    each DMEPOS supplier should have a                       procedures that promote allegiance to
improprieties without fear of retaliation;             person in its organization (this person                  the DMEPOS supplier’s compliance
and                                                    may have other functional                                program;
   • Continuing the momentum of the                    responsibilities) who can oversee the                       • Recommending and monitoring, in
compliance program and the                             DMEPOS supplier’s compliance with                        conjunction with the relevant
accomplishment of its objectives long                  respect to applicable statutes, rules,                   departments, the development of
after the initial years of                             regulations, and policies. The structure                 internal systems and controls to carry
implementation.140                                     and comprehensiveness of the DMEPOS                      out the organization’s standards,
   The compliance officer must have the                                                                         policies, and procedures as part of its
                                                       supplier’s compliance program will
authority to review all documents and                                                                           daily operations; 144
                                                       help determine the responsibilities of
other information that are relevant to                                                                             • Determining the appropriate
                                                       each individual compliance officer.
compliance activities, including, but not                                                                       strategy/approach to promote
limited to, patient records (where                     2. Compliance Committee                                  compliance with the program and
appropriate), billing records, and                                                                              detection of any potential violations,
                                                         The OIG recommends, where feasible,
DMEPOS supplier records concerning                                                                              such as through hotlines and other fraud
                                                       that a compliance committee be
the marketing efforts of the DMEPOS                                                                             reporting mechanisms;
                                                       established to advise the compliance
supplier and the DMEPOS supplier’s                                                                                 • Developing a system to solicit,
                                                       officer and assist in the implementation
arrangements with other parties,                                                                                evaluate, and respond to complaints and
                                                       of the compliance program.141 When
including employees, home health                                                                                problems; and
                                                       assembling a team of people to serve as
agencies, skilled nursing facilities, and                                                                          • Monitoring internal and external
                                                       the DMEPOS supplier’s compliance
treating physicians or other authorized                                                                         audits and investigations for the
                                                       committee, the DMEPOS supplier
persons. This policy enables the                                                                                purpose of identifying troublesome
                                                       should include individuals with a
compliance officer to review contracts                                                                          issues and deficient areas experienced
                                                       variety of skills.142 The OIG strongly
and obligations (seeking the advice of                                                                          by the DMEPOS supplier, and
                                                       recommends that the compliance officer
legal counsel, where appropriate) that                                                                          implementing corrective and preventive
                                                       manage the compliance committee.
may contain referral and payment                                                                                action.
                                                       Once a DMEPOS supplier chooses the
provisions that could violate the anti­                                                                            The committee may also address other
                                                       people that will accept the
kickback statute, as well as the Stark                                                                          functions as the compliance concept
                                                       responsibilities vested in members of
physician self-referral prohibition or                                                                          becomes part of the overall DMEPOS
                                                       the compliance committee, the
other statutory or regulatory                                                                                   supplier’s operating structure and daily
                                                       DMEPOS supplier must train these
requirements.                                                                                                   routine.
   In addition, the compliance officer                 individuals on the policies and
                                                                                                                   The compliance committee is an
should be copied on the results of all                                                                          extension of the compliance officer and
                                                         141 The compliance committee benefits from
internal audit reports and work closely                having the perspectives of individuals with varying      provides the organization with
with key managers to identify aberrant                 responsibilities in the organization, such as            increased oversight. The OIG recognizes
trends in the coding and billing areas.                operations, billing, coding, marketing, and human        that small DMEPOS suppliers may not
The compliance officer should ascertain                resources, as well as employees and managers of
                                                       key operating units. These individuals should have       have the resources or the need to
patterns that require a change in policy               the requisite seniority and comprehensive                establish a compliance committee.
and forward these issues to the                        experience within their respective departments to        However, when potential problems are
compliance committee to remedy the                     implement any necessary changes to the DMEPOS            identified, the OIG recommends that the
problem. The compliance officer should                 supplier’s policies and procedures as recommended
                                                       by the committee. A compliance committee for a           small DMEPOS supplier create a
have full authority to stop the                        DMEPOS supplier that is part of another
processing of claims that he or she                    organization (e.g., home health agency) might               143 This includes, but is not limited to, the civil

                                                       benefit from the participation of officials from other   False Claims Act, 31 U.S.C. 3729–3733; the criminal
  140 Periodic on-site visits of DMEPOS supplier       departments in the organization, such as the             false claims statutes, 18 U.S.C. 287, 1001; the fraud
operations, bulletins with compliance updates and      accounting and billing departments.                      and abuse provisions of the Balanced Budget Act
reminders, distribution of audiotapes or videotapes      142 A DMEPOS supplier should expect its                of 1997, Pub.L. 105–33; the Health Insurance
on different risk areas, lectures at management and    compliance committee members and compliance              Portability and Accountability Act of 1996, Pub.L.
employee meetings, circulation of recent health care   officer to demonstrate high integrity, good              104–191; and compliance with the Medicare
articles covering fraud and abuse, and innovative      judgment, assertiveness, and an approachable             supplier standards, 42 CFR 424.57.
changes to compliance training are various             demeanor, while eliciting the respect and trust of          144 With respect to national DMEPOS supplier

examples of approaches and techniques the              employees of the DMEPOS supplier. The DMEPOS             chains, this may include fostering coordination and
compliance officer can employ for the purpose of       supplier’s compliance committee members should           communication between those employees
ensuring continued interest in the compliance          also have significant professional experience            responsible for compliance at headquarters and
program and the DMEPOS supplier’s commitment           working with billing, documentation, and auditing        those responsible for compliance at the individual
to its policies and principles.                        principles.                                              supplier branches.
                                Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                                                     36383

‘‘taskforce,’’ if appropriate, to address              also wish to offer such training sessions                  • Providing and billing DMEPOS
the problem. The members of the                        to interested independent contractors                   items or services without proper
taskforce may vary depending upon the                  and physicians. Managers of specific                    authorization;
issue.                                                 departments can assist in identifying                      • Proper documentation of services
                                                       areas that require training and in                      rendered, including the correct
C. Conducting Effective Training and                   carrying out such training.146 Training                 application of official ICD–9 and HCPCS
Education                                              New employees should be targeted for                    coding rules and guidelines;
1. Initial Training in Compliance                      training early in their employment.147                     • Improper alterations to
                                                          As part of the initial training, the                 documentation (e.g., patient records,
  The proper education and training of                 standards of conduct should be                          CMNs);
corporate officers, managers, employees                distributed to all employees.148 At the                    • Compliance with the Federal, State
and the continual retraining of current                end of this training session, every                     and private payor supplier standards;
personnel at all levels, are significant               employee should be required to sign                     and
elements of an effective compliance                    and date a statement that reflects his or                  • Duty to report misconduct.
program. In order to ensure the                        her knowledge of and commitment to                         Clarifying and emphasizing these
appropriate information is being                       the standards of conduct. This                          areas of concern through training and
disseminated to the correct individuals,               attestation should be retained in the                   educational programs are particularly
the training should be separated into                  employee’s personnel file.                              relevant to a DMEPOS supplier’s billing
sessions. All employees should attend                     Further, to assist in ensuring that                  and coding personnel, in that the
the general session on compliance, and                 employees continuously meet the                         pressure to meet business goals may
employees whose job primarily focuses                  expected high standards of conduct, any                 render employees vulnerable to
on submission of claims for                            employee handbook delineating or                        engaging in prohibited practices.
reimbursement, or who are involved in                  expanding upon these standards should
sales and marketing, should receive                    be regularly updated as applicable                      c. Sales and Marketing Training
additional training on these particular                statutes, regulations and Federal health                   In addition to specific training in the
subjects. In addition, the OIG                         care program requirements are                           risk areas identified in section II.A.2,
recommends that the DMEPOS supplier                    modified.149 The DMEPOS supplier                        above, primary training to sales and
inform physicians, independent                         should provide an additional attestation                marketing personnel should include
contractors, and significant agents that it            in the modified standards that stipulates               such topics as:
has implemented a compliance                           the employee’s knowledge of and                            • General prohibition on paying or
program.                                               commitment to the modifications.                        receiving renumeration to induce
a. General Sessions                                    b. Claim Development and Billing                        referrals;
                                                       Training                                                   • Routine waiver of deductibles and/
  The OIG recommends, as part of its                                                                           or coinsurance;
compliance program, that the DMEPOS                       In addition to specific training in the                 • Disguising referral fees as salaries;
supplier require all affected personnel                risk areas identified in section II.A.2,                   • Offering free items or services to
to attend training on an annual basis,                 above, primary training to appropriate                  induce referrals;
including appropriate training in                      corporate officers, managers and other                     • High pressure marketing of
Federal and State statutes, regulations                claim development and billing staff                     noncovered or unnecessary services;
and guidelines, HCFA manual                            should include such topics as:                             • Improper patient solicitation; and
                                                          • Specific Government and private                       • Duty to report misconduct.
instructions, DMERC medical review
                                                       payor reimbursement principles; 150                        Clarifying and emphasizing these
policies, the policies of private payors,
and training in corporate ethics. The                                                                          areas of concern through training and
                                                       basis for standards, educational courses and            educational programs are particularly
general training session should                        programs.
emphasize the DMEPOS supplier’s                          146 Significant variations in functions and           relevant to a DMEPOS supplier’s sales
commitment to compliance with these                    responsibilities of different departments may create    and marketing personnel, in that the
legal requirements and policies.                       the need for training materials that are tailored to    pressure to meet business goals may
                                                       the compliance concerns associated with particular      render employees vulnerable to
  These training programs should                       operations and duties. instructors may come from
include sessions highlighting the                      outside or inside the organization.                     engaging in prohibited practices.
                                                         147 Certain positions, such as those involving           The OIG believes all DMEPOS
DMEPOS supplier’s compliance
                                                       developing and submitting claims, as well as sales      suppliers, regardless of size, should
program, summarizing fraud and abuse                   and marketing, create a greater organizational legal    ensure that their employees are well
statutes and regulations, Federal, State               exposure, and therefore require specialized training.
                                                                                                               trained and are abiding by the
and private payor health care program                  The DMEPOS supplier should fill such positions
                                                       with individuals who have the appropriate               applicable statutes, regulations, and
requirements, claim submission
                                                       educational background, training, experience, and       policies. Each employee should know
procedures and marketing practices that                credentials.                                            the procedures or who to consult when
reflect current legal and program                        148 Where the DMEPOS supplier has a culturally
                                                                                                               confronted with a particular situation.
standards. The DMEPOS supplier must                    diverse employee base, the standards of conduct
take steps to communicate effectively its              should be translated into other languages and           2. Format of the Training Program
                                                       written at appropriate reading levels.
standards and procedures to all affected                 149 The OIG recognizes that not all standards,          The OIG suggests that all relevant
employees (e.g., by requiring                          policies and procedures need to be communicated         levels of personnel be made part of
participation in training programs and                 to all employees. However, the OIG believes that
                                                                                                               various educational and training
disseminating publications that explain                the bulk of the standards that relate to complying
                                                       with fraud and abuse laws and other ethical areas       programs of the DMEPOS supplier.151
specific requirements in a practical                   should be addressed and made part of all
manner).145 DMEPOS suppliers may                       employees’ training. A DMEPOS supplier should             151 In addition, where feasible, the OIG
                                                       determine the additional training to provide            recommends that a DMEPOS supplier afford
  145 OIG publications such as Special Fraud Alerts,   categories of employees based upon their job            outside contractors and its physician clients the
audit and inspection reports, and Advisory             responsibilites.                                        opportunity to participate in the DMEPOS
Opinions, as well as the annual OIG Work Plan, are       150 Government, in this context, includes the         supplier’s compliance training and educational
readily available from the OIG and could be the        appropriate Medicare DMERC(s).                                                                      Continued
36384                           Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

Employees should be required to have a                    The OIG recognizes the format of the
     etc.). Such regularly held meetings will
minimum number of educational hours                    training program will vary depending
        help demonstrate the DMEPOS
per year, as appropriate, as part of their             upon the resources of the DMEPOS
            supplier’s commitment to compliance.
employment obligations.152 For                         supplier. For example, a small DMEPOS

                                                                                                    D. Developing Effective Lines of
example, as discussed above, employees                 supplier may want to create a video for

                                                                                                    Communication
involved in billing functions should be                each type of training session so new

required to attend periodic training in                employees can receive training in a
         1. Access to the Compliance Officer
applicable reimbursement coverage and                  timely manner.
                                 An open line of communication
documentation of records.153
                                                                       between the compliance officer and
   A variety of teaching methods, such                 3. Continuing Education on Compliance

                                                       Issues
                                      DMEPOS supplier employees is equally
as interactive training and training in                                                             important to the successful
several different languages, particularly                 It is essential that compliance issues

                                                                                                    implementation of a compliance
where a DMEPOS supplier has a                          remain at the forefront of the DMEPOS

                                                                                                    program and the reduction of any
culturally diverse staff, should be                    supplier’s priorities. The OIG

                                                                                                    potential for fraud, abuse, and waste.
implemented so that all affected                       recommends that the DMEPOS

                                                                                                    Written confidentiality and non­
employees are knowledgeable about the                  supplier’s compliance program address

                                                                                                    retaliation policies should be developed
DMEPOS supplier’s standards of                         the need for periodic professional

                                                                                                    and distributed to all employees to
conduct and procedures for alerting                    education courses for DMEPOS supplier

                                                                                                    encourage communication and the
senior management to problems and                      personnel. In particular, the DMEPOS

                                                                                                    reporting of incidents of potential
concerns.154 Targeted training should be               supplier should ensure that coding

                                                                                                    fraud. 156 The compliance committee
provided to corporate officers, managers               personnel receive annual professional

                                                                                                    should also develop several
and other employees whose actions                      training on the updated codes for the

                                                                                                    independent reporting paths for an
affect the accuracy of the claims                      current year and have knowledge of the

                                                                                                    employee to report fraud, waste, or
submitted to the Government, such as                   SADMERC’s HCPCS coding helpline. 155

                                                          In order to maintain a sense of
          abuse so that such reports cannot be
employees involved in the coding,                                                                   diverted by supervisors or other
billing, sales, and marketing processes.               seriousness about compliance in a

                                                       DMEPOS supplier’s operations, the
           personnel.
All training materials should be                                                                       The OIG encourages the establishment
designed to take into account the skills,              DMEPOS supplier must continue to

                                                                                                    of a procedure for personnel to seek
knowledge and experience of the                        disseminate the compliance message.

                                                                                                    clarification from the compliance officer
individual trainees. Given the                         One effective mechanism for

                                                                                                    or members of the compliance
complexity and interdependent                          maintaining a consistent presence of the

                                                                                                    committee in the event of any confusion
relationships of many departments, it is               compliance message is to publish a

                                                                                                    or question regarding a DMEPOS
important for the compliance officer to                monthly newsletter to address

                                                                                                    supplier policy, practice or procedure.
supervise and coordinate the training                  compliance concerns. This would allow

                                                                                                    Questions and responses should be
program.                                               the DMEPOS supplier to address

                                                                                                    documented and dated and, if
   The OIG recommends that attendance                  specific examples of problems the

                                                                                                    appropriate, shared with other staff so
and participation in training programs                 company encountered during its

                                                                                                    that standards, policies, practices, and
be made a condition of continued                       ongoing audits and risk analyses, while

                                                                                                    procedures can be updated and
employment and that failure to comply                  reinforcing the DMEPOS supplier’s firm

                                                                                                    improved to reflect any necessary
with training requirements should result               commitment to the general principles of

                                                                                                    changes or clarifications. The
in disciplinary action, including                      compliance and ethical conduct. The

                                                                                                    compliance officer may want to solicit
possible termination, when such failure                newsletter could also include the risk

                                                       areas published by the OIG in its
           employee input in developing these
is serious. Adherence to the provisions                                                             communication and reporting systems.
of the compliance program, such as                     Special Fraud Alerts. Finally, the

training requirements, should be a factor              DMEPOS supplier could use the
               2. Hotlines and Other Forms of
in the annual evaluation of each                       newsletter as a mechanism to address
        Communication
employee. The DMEPOS supplier                          areas of ambiguity in the coding and
           The OIG encourages the use of
should retain adequate records of its                  billing process and/or its sales and
        hotlines,157 e-mails, written memoranda,
training of employees, including                       marketing practices. The DMEPOS
             newsletters, suggestion boxes, and other
attendance logs and material distributed               supplier should maintain its newsletters
    forms of information exchange to
at training sessions.                                  in a central location to document the
       maintain these open lines of
                                                       guidance offered, and provide new            communication.158 If the DMEPOS
programs, or develop their own programs that
                                                       employees with access to guidance

complement the DMEPOS supplier’s standards of          previously provided.
                           156 The OIG believes that whistleblowers should
conduct, compliance requirements and other rules          The OIG believes it is important that
    be protected against retaliation, a concept embodied
and practices.                                         all DMEPOS suppliers, regardless of          in the provisions of the False Claims Act. See 31
  152 Currently, the OIG is monitoring a significant                                                U.S.C. 3730(h). In many cases, employees sue their
                                                       size, maintain knowledgeable
number of corporate integrity agreements that
                                                      employers under the False Claims Act’s qui tam
require many of these training elements. The OIG       employees. The OIG recognizes that
          provisions out of frustration because of the
usually requires a minimum of one to three hours       regularly sending employees to
              company’s failure to take action when a
annually for basic training in compliance areas.       continuing education classes or
             questionable, fraudulent, or abusive situation was
Additional training is required for specially fields   publishing newsletters may not be
           brought to the attention of senior corporate officials.
such as billing, coding, sales and marketing.
                                                         157 The OIG recognizes that it may not be
  153 Appropriate coding and billing depends upon
                                                       feasible for small DMEPOS suppliers.         financially feasible for a small DMEPOS supplier to
the quality and completeness of documentation.         Small DMEPOS suppliers may have              maintain a telephone hotline dedicated to receiving
Therefore, the OIG believes that the DMEPOS            their employees meet on a regular basis      calls solely on compliance issues. These companies
supplier must foster an environment where              to discuss information in the DMERC’s        may want to explore alternative methods, e.g.,
interactive communication is encouraged.                                                            outsourcing the hotline or establishing a written
  154 Post training tests can be used to assess the
                                                       Medicare bulletin (e.g., coding changes,     method of confidential disclosure.
success of training provided and employee              procedural changes, policy changes,             158 In addition to methods of communication used

comprehension of the DMEPOS supplier’s policies                                                     by current employees, an effective employee exit
and procedures.                                         155 See   note 96.                          interview program could be designed to solicit
                                Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                                                   36385

supplier establishes a hotline, the                    know who to consult and should be able                initiatives.163 In addition, the DMEPOS
telephone number should be made                        to do so without fear of retribution.                 supplier should focus on any areas of
readily available to all employees and                                                                       specific concern identified within that
                                                       E. Auditing and Monitoring
independent contractors, possibly by                                                                         DMEPOS supplier and those that may
circulating the number on wallet cards                    An ongoing evaluation process is                   have been identified by any entity,
or conspicuously posting the telephone                 critical to a successful compliance                   whether Federal, State, private or
number in common work areas.159                        program. The OIG believes that an                     internal.
Employees should be permitted to                       effective program should incorporate                     Monitoring techniques may include
report matters on an anonymous basis.                  thorough monitoring of its                            sampling protocols that permit the
Matters reported through the hotline or                implementation and regular reporting to               compliance officer to identify and
other communication sources that                       the DMEPOS supplier’s corporate                       review variations from an established
suggest substantial violations of                      officers.162 Compliance reports created               baseline.164 Significant variations from
compliance policies, Federal, State or                 by this ongoing monitoring, including                 the baseline should trigger a reasonable
private payor health care program                      reports of suspected noncompliance,                   inquiry to determine the cause of the
requirements, regulations, or statutes                 should be maintained by the                           deviation. If the inquiry determines that
should be documented and investigated                  compliance officer and shared with the                the deviation occurred for legitimate,
promptly to determine their veracity. A                DMEPOS supplier’s corporate officers                  explainable reasons, the compliance
log should be maintained by the                        and the compliance committee. The                     officer and DMEPOS supplier
compliance officer that records such                   extent and frequency of the audit                     management may want to limit any
calls, including the nature of any                                                                           corrective action or take no action. If it
                                                       function may vary depending on factors
investigation and its results.160 Such                                                                       is determined that the deviation was
                                                       such as the size of the DMEPOS
information should be included in                                                                            caused by improper procedures,
                                                       supplier, the resources available to the
reports to the owner(s), governing body,                                                                     misunderstanding of rules, including
                                                       DMEPOS supplier, the DMEPOS
CEO, president, and compliance                                                                               fraud and systemic problems, the
                                                       supplier’s prior history of
committee.161 Further, while the                                                                             DMEPOS supplier should take prompt
                                                       noncompliance, and the risk factors that
DMEPOS supplier should always strive                                                                         steps to correct the problem.165 Any
                                                       are prevalent in a particular DMEPOS
to maintain the confidentiality of an                                                                        overpayments discovered as a result of
                                                       supplier.
employee’s identity, it should also                                                                          such deviations should be returned
                                                          Although many monitoring                           promptly to the affected payor. The OIG
explicitly communicate that there may
                                                       techniques are available, one effective               recommends sending the payor the
be a point where the individual’s
                                                       tool to promote and ensure compliance                 following information with the
identity may become known or may
                                                       is the performance of regular, periodic               overpayment: (1) that the refund is
have to be revealed.
                                                       compliance audits by internal or                      being made pursuant to a voluntary
   The OIG recognizes that assertions of
                                                       external auditors who have expertise in               compliance program; (2) a description of
fraud and abuse by employees who may
                                                       Federal and State health care statutes,               the complete causes and circumstances
have participated in illegal conduct or
                                                       rules, regulations, and Federal, State                surrounding the overpayment; (3) the
committed other malfeasance raise
                                                       and private payor health care program                 methodology by which the overpayment
numerous complex legal and
                                                       requirements. The audits should focus                 was determined; (4) the amount of the
management issues that should be
                                                       on the different departments within the               overpayment; and (5) any claim-specific
examined on a case-by-case basis. The
                                                       DMEPOS supplier, including external                   information, reviewed as part of the self­
compliance officer should work closely
                                                       relationships with third-party                        audit, used to determine the
with legal counsel, who can provide
                                                       contractors. At a minimum, these audits               overpayment (e.g., beneficiary health
guidance regarding such issues.
                                                       should be designed to address the                     insurance claims number, claim
   The OIG recognizes that protecting
                                                       DMEPOS supplier’s compliance with                     number, date of service, and payment
anonymity may be infeasible for small
                                                       laws governing kickback arrangements,                 date). Inclusion of such information
DMEPOS suppliers. However, the OIG
                                                       the physician self-referral prohibition,              with the overpayment will aid the payor
believes all DMEPOS supplier
                                                       pricing, contracts, claim development                 in making the adjustment and may
employees, when seeking answers to
                                                       and submission, reimbursement, sales                  prevent it from requesting additional
questions or reporting potential
                                                       and marketing. In addition, the audits                information.
instances of fraud and abuse, should
                                                       and reviews should examine the                           An effective compliance program
                                                       DMEPOS supplier’s compliance with                     should also incorporate periodic (at
information from departing employees regarding
potential misconduct and suspected violations of
                                                       the Federal, State and private payor                  least annual) reviews of whether the
DMEPOS supplier policies and procedures.               supplier standards and the specific rules
   159 DMEPOS suppliers should also post in a          and policies that have been the focus of                163 See  also section II.A.2.
prominent, available area the HHS-OIG Hotline          particular attention on the part of the                 164 The  OIG recommends that when a compliance
telephone number, 1–800–447–8477 (1–800–HHS-           Medicare DMERCs, and law                              program is established in a DMEPOS supplier, the
TIPS), in addition to any company hotline number                                                             compliance officer, with the assistance of
that may be posted.                                    enforcement, as evidenced by                          department managers, should take a ‘‘snapshot’’ of
   160 To efficiently and accurately fulfill such an   educational and other communications                  operations from a compliance perspective. This
obligation, a DMEPOS supplier should create an         from OIG Special Fraud Alerts,                        assessment can be undertaken by outside
intake form for all compliance issues identified       Advisory Opinions, OIG audits and                     consultants, law or accounting firms, or internal
through reporting mechanisms. The form could                                                                 staff, with authoritative knowledge of health care
include information concerning the date that the
                                                       evaluations, and law enforcement’s                    compliance requirements. This ‘‘snapshot,’’ often
potential problem was reported, the internal                                                                 used as part of benchmarking analyses, becomes a
investigative methods utilized, the results of the        162 Even when a DMEPOS supplier is owned by        baseline for the compliance officer and other
investigation, any corrective action implemented,      a larger corporate entity, the regular auditing and   managers to judge the DMEPOS supplier’s progress
any disciplinary measures imposed, and any             monitoring of the compliance activities of an         in reducing or eliminating potential areas of
overpayments returned.                                 individual DMEPOS supplier location must be a         vulnerability.
   161 Information obtained over the hotline may       key feature in any annual review. Appropriate           165 In addition, when appropriate, as referenced in

provide valuable insight into management practices     reports on audit findings should be periodically      section II.G.2, below, reports of fraud or systemic
and operations, whether reported problems are          provided and explained to a parent organization’s     problems should also be made to the appropriate
actual or perceived.                                   senior staff and officers.                            governmental authority.
36386                           Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

program’s compliance elements have                        • Interviews with physicians or other            requests advice from a Government
been satisfied, e.g., whether there has                authorized persons who order services               agency (including a Medicare DMERC)
been appropriate dissemination of the                  provided by the DMEPOS supplier;                    charged with administering a Federal
program’s standards, training, ongoing                    • Interviews with independent                    health care program, the DMEPOS
educational programs, and disciplinary                 contractors who provide services to the             supplier should document and retain a
actions, among other elements.166 This                 DMEPOS supplier;                                    record of the request and any written or
process will verify actual conformance                    • Reviews of medical necessity                   oral response, including the identity
by all departments with the compliance                 documentation (e.g., physicians orders,             and position of the individual providing
program and may identify the necessity                 CMNs), and other documents that                     the response. The DMEPOS suppliers
for improvements to be made to the                     support claims for reimbursement;                   should take the same steps when
compliance program, as well as the                        • Validation of qualifications of                requesting advice from private payors.
DMEPOS supplier’s operations. Such                     physicians or other authorized persons              This step is extremely important if the
reviews could support a determination                  who order services provided by the                  DMEPOS supplier intends to rely on
that appropriate records have been                     DMEPOS supplier;                                    that response to guide it in future
created and maintained to document the                    • Evaluation of written materials and            decisions, actions, or claim
implementation of an effective                         documentation outlining the DMEPOS                  reimbursement requests or appeals. A
program.167 However, when monitoring                   supplier’s policies and procedures; and             log of oral inquiries between the
discloses that deviations were not                        • Utilization/trend analyses that                DMEPOS supplier and third parties will
detected in a timely manner due to                     uncover deviations, positive or negative,           help the organization document its
program deficiencies, appropriate                      for specific HCPCS codes or types of                attempts at compliance. In addition, the
modifications must be implemented.                     items over a given period.                          DMEPOS supplier should maintain
                                                          The reviewers should:                            records relevant to the issue of whether
Such evaluations, when developed with
                                                          • Possess the qualifications and                 its reliance was ‘‘reasonable’’ and
the support of management, can help
                                                       experience necessary to adequately                  whether it exercised due diligence in
ensure compliance with the DMEPOS
                                                       identify potential issues with the subject          developing procedures and practices to
supplier’s policies and procedures.
                                                       matter to be reviewed;                              implement the advice.
   As part of the review process, the                     • Be objective and independent of
compliance officer or reviewers should                                                                        The OIG recommends that all
                                                       line management;168                                 DMEPOS suppliers, regardless of size,
consider techniques such as:                              • Have access to existing audit and
   • Testing billing staff on their                                                                        conduct audits to ensure compliance
                                                       health care resources, relevant                     with the applicable statutes, regulations
knowledge of reimbursement coverage                    personnel, and all relevant areas of
criteria and official coding guidelines                                                                    and policies. The OIG recognizes that
                                                       operation;                                          the small DMEPOS supplier may not
(e.g., present hypothetical scenarios of                  • Present written evaluative reports
situations experienced in daily practice                                                                   have the resources to audit its
                                                       on compliance activities to the owner(s),
and assess responses);                                                                                     operations to the extent suggested
                                                       president, CEO, governing body, and
   • On-site visits to all facilities and                                                                  previously in this section. At a
                                                       members of the compliance committee
locations;                                                                                                 minimum, the OIG recommends that the
                                                       on a regular basis, but not less than
   • Ongoing risk analysis and                                                                             small DMEPOS supplier conduct an
                                                       annually; and
                                                                                                           internal audit. The DMEPOS supplier
vulnerability assessments of the                          • Specifically identify areas where
DMEPOS supplier’s operations;                                                                              may choose to review a random sample
                                                       corrective actions are needed.
   • Assessment of existing                               We recommend that these audit                    of claims based on the risk areas it
relationships with physicians, and other               reports be prepared and submitted to                identified. We recommend that the
potential referral sources;                            the compliance officer and senior                   DMEPOS supplier conduct an initial
   • Unannounced audits, mock                          management to ensure they are aware of              baseline audit and periodically conduct
surveys, and investigations;                           the results. We suggest the reports                 follow-up audits. If problems were
   • Examination of the DMEPOS                         specifically identify areas where                   identified in the baseline audit, the
supplier’s complaint logs;                             corrective actions are needed. With                 DMEPOS supplier may want to re-audit
   • Checking personnel records to                     these reports, DMEPOS supplier                      the same issue, at a later date, in order
determine whether any individuals who                  management can take whatever steps are              to measure the effectiveness of any
have been reprimanded for compliance                   necessary to correct past problems and              corrective action(s) implemented as a
issues in the past are among those                     prevent them from recurring. In certain             result of the DMEPOS supplier’s
currently engaged in improper conduct;                 cases, subsequent reviews or studies                compliance program. The DMEPOS
   • Interviews with personnel involved                would be advisable to ensure that the               supplier should document the results of
in management, operations, sales and                   recommended corrective actions have                 all audits it conducts. The DMEPOS
marketing, claim development and                       been implemented successfully.                      supplier may want to use the OIG’s
submission, and other related activities;                 A DMEPOS supplier should                         Audit Process handbook to help design
   • Questionnaires developed to solicit               document its efforts to comply with                 the audit.169
impressions of the DMEPOS supplier’s                   applicable Federal and State statutes,                 The extent of a DMEPOS supplier’s
employees;                                             rules, and regulations, and Federal,                audit should depend on the DMEPOS
                                                       State and private payor health care                 supplier’s identified risk areas and
   166 One way to assess the knowledge, awareness,     program requirements. For example,                  resources. If the DMEPOS supplier
and perceptions of a DMEPOS supplier’s employees       where a DMEPOS supplier, in its efforts             comes under Government scrutiny in
is through the use of a validated survey instrument
                                                       to comply with a particular statute,                the future, the Government will assess
(e.g., employee questionnaires, interviews, or focus                                                       whether or not the DMEPOS supplier
groups).                                               regulation or program requirement,
   167 Such records should include, but not be
                                                                                                           developed a comprehensive audit based
limited to, logs of hotline calls, logs of training      168 The OIG recognizes that DMEPOS suppliers      upon identified risk areas and resources.
attendees, training agenda and materials, and          that are small in size and have limited resources
summaries of corrective action and improvements        may not be able to use internal reviewers who are     169 The Audit Process handbook can be

with respect to DMEPOS supplier policies as a          not part of line management or hire outside         downloaded from the OIG Office of Audit Services’
result of compliance activities.                       reviewers.                                          webpage at http://www.hhs.gov/progorg/oas.
                           Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                                                  36387

If the Government determines that the          improper conduct and to educate                          such employees should be removed
DMEPOS supplier failed to develop an           corporate officers, managers, and other                  from direct responsibility for, or
adequate audit program, given its              DMEPOS supplier employees regarding                      involvement with, the DMEPOS
resources, the Government will be less         these standards. The consequences of                     supplier’s business operations related to
likely to afford the DMEPOS supplier           noncompliance should be consistently                     any Federal health care program. In
favorable treatment under its various          applied and enforced, in order for the                   addition, we recommend that the
enforcement authorities.                       disciplinary policy to have the required                 DMEPOS supplier remove such
                                               deterrent effect. All levels of employees                employee from any position(s) for
F. Enforcing Standards Through Well-           should be subject to the same types of
Publicized Disciplinary Guidelines                                                                      which the employee’s salary or the
                                               disciplinary action for the commission                   items or services rendered by the
1. Discipline Policy and Actions               of similar offenses. The commitment to                   employee are paid in whole or part,
   An effective compliance program             compliance applies to all personnel                      directly or indirectly, by Federal health
                                               levels within a DMEPOS supplier. The                     care programs or otherwise with Federal
should include guidance regarding
                                               OIG believes that corporate officers,                    funds.172 If resolution of the matter
disciplinary action for corporate
                                               managers, and supervisors should be                      results in conviction, debarment, or
officers, managers, independent agents
                                               held accountable for failing to comply                   exclusion, then the DMEPOS supplier
and other DMEPOS supplier employees
                                               with, or for the foreseeable failure of                  should remove the individual from
who have failed to comply with the
                                               their subordinates to adhere to, the                     direct responsibility for or involvement
DMEPOS supplier’s standards of
                                               applicable standards, statutes, rules,                   with all Federal health care programs.
conduct, policies and procedures,
                                               regulations and procedures.                              Similarly, if an independent contractor
Federal and State statutes, rules, and           The OIG believes all DMEPOS
regulations or Federal, State or private                                                                or a referring physician or other
                                               suppliers, regardless of size, should
payor health care program requirements.                                                                 authorized person is debarred or
                                               consistently apply the consequences of
It should also address disciplinary                                                                     excluded from participation in Federal
                                               non-compliance. The OIG recognizes
actions for those who have engaged in                                                                   health care programs, and the DMEPOS
                                               that small DMEPOS suppliers may not
wrongdoing, which has the potential to         have a written document detailing the                    supplier is aware of it, the DMEPOS
impair the DMEPOS supplier’s status as         disciplinary actions for non-compliance.                 supplier should not involve that
a reliable, honest, and trustworthy            However, all employees should be                         individual/entity in the Federal health
health care provider.                          clearly informed of such consequences.                   care portion of its business.
   The OIG believes that the compliance                                                                    The OIG believes all DMEPOS
program should include a written policy        2. New Employee Policy
                                                                                                        suppliers, regardless of size, should
statement setting forth the degrees of            For all new employees who have                        ensure that they do not employ or
disciplinary actions that may be               discretionary authority to make                          contract with anyone who has been
imposed upon corporate officers,               decisions that may involve compliance                    debarred, excluded or is otherwise
managers, independent agents and other         with the law or compliance oversight,                    ineligible to participate in Federal
DMEPOS supplier employees for failing          DMEPOS suppliers should conduct a                        health care programs.
to comply with the DMEPOS supplier’s           reasonable and prudent background
standards, policies, and applicable            investigation, including a reference                     G. Responding to Detected Offenses and
statutes and regulations. Intentional or       check,170 as part of every such                          Developing Corrective Action Initiatives
reckless noncompliance should subject          employment application. The
transgressors to significant sanctions.                                                                 1. Violations and Investigations
                                               application should specifically require
Such sanctions could include oral              the applicant to disclose any criminal                      Violations of a DMEPOS supplier’s
warnings, suspension, termination, or          conviction, as defined by 42 U.S.C.                      compliance program, failures to comply
other sanctions, as appropriate. Each          1320a-7(i), or exclusion action. Pursuant                with applicable Federal or State
situation must be considered on a case­        to the compliance program, the                           statutes, rules, regulations or Federal,
by-case basis to determine the                 DMEPOS supplier’s policies should                        State or private payor health care
appropriate sanction. The written              prohibit the employment of individuals                   program requirements, and other types
standards of conduct should elaborate          who have been recently convicted of a                    of misconduct threaten a DMEPOS
on the procedures for handling                 criminal offense related to health care or               supplier’s status as a reliable, honest
disciplinary problems and specify those        who are listed as debarred, excluded, or                 and trustworthy health care provider.
who will be responsible for taking             otherwise ineligible for participation in                Detected but uncorrected misconduct
appropriate action. Some disciplinary          Federal health care programs (as defined                 can seriously endanger the mission,
actions can be handled by managers,            in 42 U.S.C. 1320a-7b(f)).171 In addition,               reputation, and legal status of the
while others may have to be resolved by        pending the resolution of any criminal                   DMEPOS supplier. Consequently, upon
the owner(s), president or CEO.                charges or proposed debarment or                         reports or reasonable indications of
Disciplinary action may be appropriate         exclusion, the OIG recommends that
                                                                                                        suspected noncompliance, it is
where a responsible employee’s failure                                                                  important that the compliance officer or
to detect a violation is attributable to his     170 See notes 137 and 138. Since the employees
                                                                                                        other management officials immediately
or her negligence or reckless conduct.         of DMEPOS suppliers have access to potentially
                                               vulnerable people and their property, DMEPOS             investigate the conduct in question to
Personnel should be advised by the             suppliers should also strictly scrutinize whether        determine whether a material violation
DMEPOS supplier that disciplinary              they should employ individuals who have been
                                                                                                        of applicable law, rules or program
action will be taken on a fair and             convicted of crimes of neglect, violence or financial
                                               misconduct.                                              instructions or the requirements of the
equitable basis. Managers and                    171 Likewise, DMEPOS supplier compliance               compliance program has occurred, and
supervisors should be made aware that          programs should establish standards prohibiting the      if so, take decisive steps to correct the
they have a responsibility to discipline       execution of contracts with companies that have
employees in an appropriate and                been recently convicted of a criminal offense              172 Prospective employees who have been
                                               related to health care or that are listed by a Federal
consistent manner.                             agency as debarred, excluded, or otherwise               officially reinstated into the Medicare and Medicaid
   It is vital to publish and disseminate      ineligible for participation in Federal health care      programs by the OIG may be considered for
the range of disciplinary standards for        programs. See notes 137 and 138.                         employment upon proof of such reinstatement.
36388                            Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices

problem.173 As appropriate, such steps                   utilizing sound practices and                           reasonable period, but not more than 60
may include an immediate referral to                     disciplinary protocols.176 Further, after a             days 178 after determining that there is
criminal and/or civil law enforcement                    reasonable period, the compliance                       credible evidence of a violation.179
authorities, a corrective action plan,174 a              officer should review the circumstances                 Prompt reporting will demonstrate the
report to the Government,175 and the                     that formed the basis for the                           DMEPOS supplier’s good faith and
return of any overpayments, if                           investigation to determine whether                      willingness to work with governmental
applicable.                                              similar problems have been uncovered                    authorities to correct and remedy the
   Where potential fraud or False Claims                 or modifications of the compliance                      problem. In addition, reporting such
Act liability is not involved, the OIG                   program are necessary to prevent and                    conduct will be considered a mitigating
recommends that the DMEPOS supplier                      detect other inappropriate conduct or                   factor by the OIG in determining
promptly return any overpayments to                      violations.                                             administrative sanctions (e.g., penalties,
the affected payor as they are                              If an investigation of an alleged                    assessments, and exclusion), if the
discovered. However, even if the                         violation is undertaken and the                         reporting provider becomes the target of
overpayment detection and return                         compliance officer believes the integrity               an OIG investigation.180
process is working and is being                          of the investigation may be at stake                      When reporting misconduct to the
monitored by the DMEPOS supplier, the                    because of the presence of employees                    Government, a DMEPOS supplier
OIG still believes that the compliance                   under investigation, those subjects                     should provide all evidence relevant to
officer needs to be made aware of these                  should be removed from their current                    the alleged violation of applicable
overpayments, violations, or deviations                  work activity until the investigation is                Federal or State law(s) and potential
that may reveal trends or patterns                       completed (unless an internal or                        cost impact. The compliance officer,
indicative of a systemic problem.                        Government-led undercover operation                     with advice of counsel, and with
   Depending upon the nature of the                      known to the DMEPOS supplier is in                      guidance from the governmental
alleged violations, an internal                          effect). In addition, the compliance                    authorities, could be requested to
investigation will probably include                      officer should take appropriate steps to                continue to investigate the reported
interviews and a review of relevant                      secure or prevent the destruction of                    violation. Once the investigation is
documents, such as submitted claims                      documents or other evidence relevant to                 completed, the compliance officer
and CMNs. The DMEPOS supplier                            the investigation. If the DMEPOS                        should be required to notify the
should consider engaging outside                         supplier determines disciplinary action                 appropriate governmental authority of
auditors or health care experts to assist                is warranted, it should be prompt and                   the outcome of the investigation,
in an investigation. Records of the                      imposed in accordance with the                          including a description of the impact of
investigation should contain                             DMEPOS supplier’s written standards of                  the alleged violation on the operation of
documentation of the alleged violation,                  disciplinary action.                                    the applicable health care programs or
a description of the investigative                          The OIG believes all DMEPOS                          their beneficiaries. If the investigation
process (including the objectivity of the                suppliers, regardless of size, should                   ultimately reveals that criminal, civil, or
investigators and methodologies                          ensure that they are responsive to                      administrative violations have occurred,
utilized), copies of interview notes and                 investigating allegations of potential                  the appropriate Federal and State
key documents, a log of the witnesses                    misconduct.                                             authorities 181 should be notified
interviewed, the documents reviewed,                                                                             immediately.
and the results of the investigation (e.g.,              2. Reporting
                                                                                                                   The OIG believes all DMEPOS
any disciplinary action taken and any                       If the compliance officer, compliance                suppliers, regardless of size, should
corrective action implemented).                          committee or other management official                  ensure that they are reporting the results
Although any action taken as the result                  discovers credible evidence of                          of any overpayments or violations to the
of an investigation will necessarily vary                misconduct from any source and, after                   appropriate entity.
depending upon the DMEPOS supplier                       a reasonable inquiry, has reason to
and the situation, DMEPOS suppliers                      believe that the misconduct may violate                 jurisdiction over the Federal Employee Health
should strive for some consistency by                    criminal, civil, or administrative law,                 Benefits Program).
                                                         then the DMEPOS supplier should                           178 In contrast, to qualify for the ‘‘not less than

   173 Instances of non-compliance must be               promptly report the existence of                        double damages’’ provision of the False Claims Act,
determined on a case-by-case basis. The existence,                                                               the report must be provided to the Government
                                                         misconduct to the appropriate Federal                   within thirty (30) days after the date when the
or amount, of a monetary loss to a health care
program is not solely determinative of whether or        and State authorities 177 within a                      DMEPOS supplier first obtained the information.
not the conduct should be investigated and reported                                                              See 31 U.S.C. 3729(a).
                                                           176 The parameters of a claim review subject to an      179 The OIG believes that some violations may be
to governmental authorities. In fact, there may be
instances where there is no readily identifiable         internal investigation will depend on the               so serious that they warrant immediate notification
monetary loss at all, but corrective action and          circumstances surrounding the issue(s) identified.      to governmental authorities, prior to, or
reporting are still necessary to protect the integrity   By limiting the scope of an internal audit to current   simultaneous with, commencing an internal
of the applicable program and its beneficiaries.         billing, a DMEPOS supplier may fail to identify         investigation, e.g., if the conduct: (1) is a clear
   174 Advice from the DMEPOS supplier’s in-house        major problems and deficiencies in operations, as       violation of criminal law; (2) has a significant
counsel or an outside law firm may be sought to          well as be subject to certain liability.                adverse effect on the quality of care provided to
determine the extent of the DMEPOS supplier’s              177 Appropriate Federal and State authorities         program beneficiaries (in addition to any other legal
liability and to plan the appropriate course of          include the Office of Inspector General, Department     obligations regarding quality of care); or (3)
action.                                                  of Health and Human Services; the Criminal and          indicates evidence of a systemic failure to comply
   175 The OIG currently maintains a provider self­      Civil Divisions of the Department of Justice; the       with applicable laws, rules or program instructions
disclosure protocol that encourages providers to         U.S. Attorney in the relevant district(s); and the      or an existing corporate integrity agreement,
report suspected fraud. The concept of voluntary         other investigative arms for the agencies               regardless of the financial impact on Federal health
self-disclosure is premised on a recognition that the    administering the affected Federal or State health      care programs.
                                                                                                                   180 The OIG has published criteria setting forth
Government alone cannot protect the integrity of         care programs, such as: the State Medicaid Fraud
the Medicare and other Federal health care               Control Unit; the Defense Criminal Investigative        those factors that the OIG takes into consideration
programs. Health care providers must be willing to       Service; the Department of Veterans Affairs; the        in determining whether it is appropriate to exclude
police themselves, correct underlying problems,          Office of Inspector General, U.S. Department of         a health care provider from program participation
and work with the Government to resolve these            Labor (which has primary criminal jurisdiction over     pursuant to 42 U.S.C. 1320a–7(b)(7) for violations
matters. The self-disclosure protocol is located on      FECA, Black Lung and Longshore programs); and           of various fraud and abuse laws. See 62 FR 67392
the OIG’s web site at http://www.dhhs.gov/progorg/       the Office of Inspector General, U.S. Office of         (December 24, 1997).
oig.                                                     Personnel Management (which has primary                   181 See note 177.
                          Federal Register / Vol. 64, No. 128 / Tuesday, July 6, 1999 / Notices                             36389

3. Corrective Actions                        the Medicare supplier standards.182 As       issue of the effective date for areas that
                                             stated throughout this guidance,             lost 1998 Difficult Development Area
   As previously stated, the DMEPOS          compliance is a dynamic process that         designations, Frederick J. Eggers,
supplier should take appropriate             helps to ensure that DMEPOS suppliers        Deputy Assistant Secretary for
corrective action, including prompt          and other health care providers are          Economic Affairs, Office of Policy
identification of any overpayment to the     better able to fulfill their commitment to   Development and Research, 451
affected payor and the imposition of         ethical behavior, as well as meet the        Seventh Street, SW, Washington, DC
proper disciplinary action. If potential
                                                                                                     �
                                             changes and challenges being imposed         20410, telephone (202) 708–3080, e-mail
fraud or violations of the False Claims      upon them by Congress and private            Frederick J. Eggers@hud.gov. With
Act are involved, any repayment of the       insurers. Ultimately, it is OIG’s hope       questions on how areas are designated
overpayment should be made as part of        that a voluntarily created compliance        and on geographic definitions, Kurt G.
the discussion with the Government           program will enable DMEPOS suppliers         Usowski, Economist, Division of
following a report of the matter to law      to meet their goals, improve the quality     Economic Development and Public
enforcement authorities. Otherwise, the      of service to patients, and substantially    Finance, Office of Policy Development
overpayment should be promptly               reduce fraud, waste, and abuse, as well      and Research, Department of Housing
refunded to the affected payor. The OIG      as the cost of health care, to Federal       and Urban Development, 451 Seventh
recommends that the overpayment              State and private health insurers.           Street, SW, Washington, DC 20410,
refund include the information as
                                                                                            �
                                               Dated: June 29, 1999.                      telephone (202) 708–0426, e-mail Kurt
outlined in section II.E. Failure to         June Gibbs Brown,                            G. Usowski@hud.gov. A text telephone
disclose overpayments within a                                                            is available for persons with hearing or
                                             Inspector General.
reasonable period of time could be                                                        speech impairments at (202) 708–9300.
interpreted as an intentional or knowing     [FR Doc. 99–16945 Filed 7–2–99; 8:45 am]
                                                                                          (These are not toll-free telephone
attempt to conceal the overpayment           BILLING CODE 4150–04–P
                                                                                          numbers.) Additional copies of this
from the Government, thereby                                                              notice are available through HUDUSER
establishing an independent basis for a                                                   at (800) 245–2691 for a small fee to
criminal or civil violation with respect     DEPARTMENT OF HOUSING AND                    cover duplication and mailing costs.
to the DMEPOS supplier, as well as any       URBAN DEVELOPMENT                               Copies Available Electronically: This
individuals who may have been                [Docket No. FR–4401–N–02]                    notice is available electronically on the
involved. For this reason, DMEPOS                                                         Internet (World Wide Web) at http://
supplier compliance programs should          Change in Effective Date in 1999             www.huduser.org/ under the heading
emphasize that overpayments obtained         Notice for Designation of Difficult          ‘‘Data Available from HUDUser.’’
from Medicare or other Federal health        Development Areas Under Section 42           SUPPLEMENTARY INFORMATION:
care programs should be promptly             of the Internal Revenue Code of 1986
disclosed and returned to the payor that                                                  Background
made the erroneous payment.                  AGENCY: Office of the Secretary, HUD.           On October 21, 1997 (62 FR 54732),
                                             ACTION: Notice.                              HUD published in the Federal Register
   The OIG believes all DMEPOS
suppliers, regardless of size, should take                                                a Notice Designating Difficult
                                             SUMMARY:    This document amends the         Development Areas for calendar year
appropriate corrective action to remedy      Notice for the Designation of Difficult
the identified deficiency.                                                                1998 (the 1998 Notice). The 1998 Notice
                                             Development Areas, published                 provided that, in the case of a building
III. Conclusion                              December 9, 1998 (the 1999 Notice,) by       described in section 42(h)(4)(B) of the
                                             extending 1998 eligibility for areas that    Code, the list (of Difficult Development
   Through this document, the OIG has        were designated as 1998 Difficult
attempted to provide a foundation to the                                                  Areas) is effective if the bonds are
                                             Development Areas in the Notice              issued and the building is placed in
process necessary to develop an              published October 21, 1997 (the 1998
effective and cost-efficient DMEPOS                                                       service after December 31, 1997.
                                             Notice) but were not designated as              On December 9, 1998 (64 FR 68116),
supplier compliance program. As              difficult development areas in the 1999      HUD published in the Federal Register
previously stated, however, each             Notice. This amendment is limited to         the Notice Designating Difficult
program must be tailored to fit the needs    buildings described in section               Development Areas for calendar year
and resources of an individual DMEPOS        42(h)(4)(B) of the Internal Revenue Code     1999 (the 1999 Notice). The 1999 Notice
supplier, depending upon its size;           of 1986 (the Code) and located in a 1998     provided that, in the case of a building
number of locations; type of equipment       Difficult Development Area. The              described in section 42(h)(4)(B) of the
provided; or corporate structure. The        amendment is necessary because               Code, the list (of Difficult Development
Federal and State health care statutes,      publication of the 1999 Notice three         Areas) is effective if the bonds are
rules, and regulations and Federal, State    weeks prior to the effective date of the     issued and the building is placed in
and private payor health care program        1999 Notice did not provide adequate         service after December 31, 1998.
requirements, should be integrated into      notice to affected entities. This Notice        Section 42(d)(5)(C) of the Code
every DMEPOS supplier’s compliance           does not change the effective date in the    defines a Difficult Development Area as
program.                                     1999 Notice for (1) areas designated as      any area designated by the Secretary of
   The OIG recognizes that the health        Difficult Development Areas in the 1999      HUD as an area that has high
care industry in this country, which         Notice that were not Difficult               construction, land, and utility costs
reaches millions of beneficiaries and        Development Areas in the 1998 Notice,        relative to the area gross median
expends about a trillion dollars             or (2) that were Difficult Development       income. All designated Difficult
annually, is constantly evolving. In         Areas in both the 1998 Notice and the        Development Areas in metropolitan
particular, legislation has been passed      1999 Notice.                                 statistical areas or primary metropolitan
that creates additional Medicare             FOR FURTHER INFORMATION CONTACT:             statistical areas (MSAs/PMSAs) may not
program participation requirements,          With questions related narrowly to the       contain more than 20 percent of the
such as requiring DMEPOS suppliers to                                                     aggregate population of all MSAs/
purchase surety bonds and expanding           182   See 63 FR 2926 (January 20, 1998).    PMSAs, and all designated areas not in
